<html>
<title> - THE DEPARTMENT OF ENERGY'S BUDGET REQUEST FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-425]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-425

     THE DEPARTMENT OF ENERGY'S BUDGET REQUEST FOR FISCAL YEAR 2017

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2016

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
                              ______________
                              
                              
                          U.S. GOVERNMENT PUBLISHING OFFICE
21-966                         WASHINGTON : 2017                          
              
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>  
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                      COLIN HAYES, Staff Director
                PATRICK J. McCORMICK III, Chief Counsel
                  BRIAN HUGHES, Deputy Staff Director
           ANGELA BECKER-DIPPMANN, Democratic Staff Director
                SAM E. FOWLER, Democratic Chief Counsel
           SCOTT McKEE, Democratic Professional Staff Member
                           
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Moniz, Hon. Ernest, Secretary, U.S. Department of Energy.........     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     2
Barrasso, Hon. John:.............................................
    Article from the Wall Street Journal dated February 26, 2016 
      by Georgi Kantchev entitled ``Europe's Energy Escape Valve: 
      U.S. Gas''.................................................    53
    Article from the Wall Street Journal dated January 27, 2016 
      by Benoit Faucon entitled ``Iran Seeks Ways To Ship Out Gas 
      As Sanctions Ease''........................................    55
    Chart entitled ``Nord Stream 2 Natural Gas Pipeline 
      Proposal''.................................................    57
Moniz, Hon. Ernest:
    Opening Statement............................................     5
    Written Testimony............................................     9
    Responses to Questions for the Record........................    91
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
     THE DEPARTMENT OF ENERGY'S BUDGET REQUEST FOR FISCAL YEAR 2017

                              ----------                              


                        Thursday, March 3, 2016

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:52 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here to consider the President's request for the 
Department of Energy (DOE) for Fiscal Year 2017. This is the 
second of three budget hearings before our Committee. Our final 
hearing on the budget will examine the Forest Service budget 
that is scheduled for next Tuesday.
    Secretary, it is good to have you before the Committee. I 
want to, again, thank you for traveling to Bethel, Alaska and 
to Oscarville with myself and the Ranking Member and four other 
members of the Committee. It was a great field hearing. We 
really appreciate that you took the time to see the need, the 
opportunity and also the progress that we are making on energy 
innovation in rural Alaska.
    The buzz is still going around the Tundra about the visit 
and the interest that was given to the region, so we appreciate 
what you have done there.
    We also appreciate the effort that you make to work with 
us, and we are looking forward to your testimony today.
    No surprise to you, but I have been critical of much of the 
President's overall budget request including his proposed 
$10.25 per barrel tax on oil that will hurt families, 
businesses and our broader economy. The President's budget 
again features the usual assortment of tax hikes, fee increases 
and other policies that will only make our primary energy 
industries, oil, natural gas and coal, less productive. Despite 
totaling $4.1 trillion, the President's budget also cuts the 
base funding for LIHEAP, the Low Income Home Energy Assistance 
Program, which helps thousands of Alaskan families stay warm 
during the cold months. These are just a few of my general 
criticisms of the President's budget request.
    The reason that we have hearings like this is so we can 
take a closer look, to see if there are some things we might be 
able to work together on within specific areas.
    To your credit, Secretary Moniz, the budget for Department 
of Energy has plenty that, I think, fits into that category. So 
I thank you for that. But I also think that it is a tribute to 
your leadership and to your efforts to improve your 
Department's performance in a cooperative as well as a 
bipartisan manner.
    As you know, sometimes we do not always agree, but you have 
always given me the courtesy of an outreach and a conversation 
and I appreciate that.
    As I mentioned, this is not the budget for the Department 
of Energy that I would write. I think it only partially adheres 
to the balanced energy policy that most of us agree on with 
significant increases for efficiency, vehicle and renewable 
technologies but a cut proposed for fossil R and D including 
the important work the Department should be doing to help 
develop methane hydrates.
    I have some questions that I will ask about the mandatory 
spending this budget proposes. But here is the good news, even 
in the instances where, again, we may initially disagree, I 
know that you are going to work with us to find some common 
ground. When it comes to the importance of the innovation in 
America's future, particularly America's energy future, I know 
that you and I are on the same page. Even if our numbers do not 
necessarily align, I think the ultimate goal is there.
    So thank you, I appreciate the opportunity to work with you 
and we look forward to your presentation.
    With that, Senator Cantwell?

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you to 
the Secretary for being here at today's hearing.
    I am very pleased to see that this year's 2017 budget 
request continues to push forward investments necessary for 
building the future of our economy through science and clean 
energy. The budget requests greater funding--an overall 
increase of ten percent--for DOE in Fiscal Year 2017, which is 
appreciated. The total budget request is $32.5 billion or $2.9 
billion more than enacted in Fiscal Year 2016. This increase 
builds on the successful investments at DOE under Secretary 
Moniz's leadership, and we thank you for that.
    In particular, the investments in science and energy at DOE 
have grown 15 percent over just the last five years, 
acknowledging the crucial role that innovation plays in 
enhancing our energy security, mitigating and adapting to 
climate change, boosting manufacturing competitiveness and 
creating jobs.
    The DOE budget takes a big step forward in fulfilling the 
U.S.'s pledge to doubling Federal clean energy research and 
development investment over the next five years as part of 
Mission Innovation. In November 2015, President Obama and other 
global leaders announced the creation of Mission Innovation. 
This initiative is made up of 20 countries that have committed 
to doubling the research and development funding over five 
years in an effort to spur clean energy innovation. The budget 
request provides details of the proposal, which would increase 
Federal investment from $6.4 billion in FY 2016 to $12 billion 
in FY 2021.
    The budget makes the Administration's commitment clear, by 
providing $7.7 billion for FY'17 and funding clean energy R and 
D across the 12 agencies--roughly 20 percent above FY 2016.
    But what is also key to this effort is successful 
partnerships with the private sector. At the same time the 
Administration announced Mission Innovation, a private sector 
innovation initiative was also announced.
    The Breakthrough Energy Coalition, led by Bill Gates, is 
made up of 29 investors from ten countries that have committed 
to significant amounts of capital in a fund that will be 
focused on early-stage, innovative clean energy technologies.
    These partnerships will help entrepreneurs translate 
investments in fundamental science and applied research and 
development--ranging from everything in smart buildings to 
energy storage and grid modernization--to the kinds of new 
products and services that help build strong companies and 
boost America's competitiveness.
    Along these lines I also want to mention the proposal 
including the DOE budget to establish regionally-focused clean 
energy innovations partnerships around the country. This is a 
new proposal that Secretary Moniz and I have discussed--along 
with my colleagues--a number of times about the potential 
advantages of this.
    The goal of these partnerships is to accelerate the pace of 
clean energy innovation and technology and address challenges 
specific to regional energy resources, customer needs and 
innovation capabilities of various regions of the country.
    Just to be clear, this is not about new physical 
infrastructure. It's about partnerships. This is about regional 
initiatives that help us move faster. I like to say it is 
almost as if it is ``distributed innovation.'' So, we have 
expertise in universities and research centers across the 
nation. I know for us in the Pacific Northwest, the fact that 
the FAA built a Center of Excellence on composite manufacturing 
took advantage of the industry that was there in aerospace. The 
research that was done there at the University of Washington 
and the research capabilities of the Federal Government allowed 
us to move faster in something that was game changing--
aerospace manufacturing--to building lighter and more fuel 
efficient planes. That is the kind of innovation we would like 
to see in other key sectors.
    I just want to say a few words about the DOE's science 
budget. The DOE's Office of Science is the single largest 
Federal sponsor of basic research in the physical sciences 
supporting over 24,000 investigators and over 300 U.S. academic 
institutions and DOE laboratories. It also plays an important 
and sometimes underappreciated role in climate science, as it 
relates to developing expertise, computing capabilities and 
data necessary to understand the carbon cycle.
    The fiscal year budget 2017 request of $5.67 billion for 
the Office of Science, which is $325 million above the 2016 
level.
    These investments, I believe, allow DOE to lead basic 
research in the physical sciences, and operate cutting-edge 
scientific user facilities while strengthening the connection 
between advances in fundamental science and technology 
innovation. This funding supports initiatives like the Energy 
Frontier Centers, Bio Energy Research Centers, and advanced 
computing research.
    I also am pleased to see the budget request for Energy 
Efficiency and Renewable Energy increase by 40 percent. For 
building efficiency, the Fiscal Year 2017 budget requests an 
$83 million increase for a particular emphasis on emerging 
technologies, new software, sensors and control technologies, 
to make buildings and systems within buildings smarter.
    Why is this so important? Well, we spend $400 billion each 
year to power our homes and commercial buildings in the United 
States. That is more than 40 percent of our nation's total 
energy bill and comprises nearly 40 percent of the nation's 
carbon pollution. So getting smarter about the intelligence of 
physical structures that consume energy is a very good 
investment for our nation.
    The global market for smart buildings technologies is an 
extremely lucrative opportunity for the United States, 
estimated to grow somewhere between $7 and $17 billion in the 
next four years. The United States, being a leader here, could 
help pay off significantly.
    There is an area of the budget I am concerned about. The 
President's proposal on the Hanford, Washington budget. I was 
relieved to see that the proposed budget of the Office of River 
Protection will allow for continued progress on the 
construction of Waste Treatment and Immobilization plant and 
continued stewardship of the tank farms.
    The Hanford Cleanup Project is still one of the largest 
cleanup projects in the entire world. I know a lot of my 
colleagues are familiar with the budget as it relates to clean 
up projects around the country and we have had some success in 
areas, but nothing compares to the task at hand at Hanford.
    It is estimated to cost, the U.S. Government another $107 
billion to finish this cleanup. This is a massive task and a 
massive undertaking, so proper funding also enables that we 
will continue to make sure that worker safety is a top 
priority. These workers are doing an incredible job at cleaning 
up Hanford, which is a monumental task, but also doing it in a 
safe and secure manner.
    Secretary Moniz, as a nuclear physicist I know you have a 
strong appreciation for the complex challenges for cleanup at 
Hanford and that much remains to be tackled.
    But I am concerned about the implications of the current 
budget on the cleanup effort in the Columbia River corridor.
    The Energy Department's Richland Office has done an 
incredible job of decontaminating, demolishing, removing waste 
and remediating the river corridor.
    To date, 324 of the 332 buildings have been decontaminated 
and demolished and 11.5 million tons of hazardous waste have 
been moved away from the Columbia River. I invite any of my 
colleagues who ever want to come and visit both the history of 
our nation here as well as the cleanup effort, we welcome them. 
Five hundred seventy-four of the 580 waste sites along the 
river have been remediated, and all the regulatory milestones 
have been completed on time or ahead-of-schedule.
    But I am afraid that the Richland Office is a victim of its 
own success, especially judging by the more than $190 million 
proposed cut to its budget for Fiscal Year 2017. The Tri-Cities 
community and I view this as the most significant risk to the 
public in the area.
    The funding shortfall endangers this progress and the 
continued maintenance of infrastructure--specifically the 
ground water remediation, the completion of the 618 waste site 
and remediation of building 324, which is highly contaminated 
and only a few hundred yards from the Columbia River. These are 
projects that are very important and extremely technically 
demanding.
    The notion that we are dealing with groundwater remediation 
so close to the Columbia River, we want to do more and not 
worry about being cut back from success. We know that this is 
technically challenging cleanup work, but we know how important 
it is for us to continue to move forward. So I look forward to 
having that discussion during the Q and A.
    And I just wanted also to say that I am concerned with the 
proposed $130 million overall cut to some of the key non-
proliferation related programs. Secretary Moniz, your 
tremendous work working on the Iran Nuclear Agreement was a 
great milestone. It is clear that the Department of Energy will 
continue to play a leading role in the safeguard technologies 
that support nuclear non-proliferation and global material 
strategies. So we want to make sure that is properly funded.
    I certainly support the grid modernization increase and 
thank you for the focus on energy storage.
    So thank you, Madam Chair, and I look forward to hearing 
the Secretary's comments.
    The Chairman. Thank you, Senator Cantwell.
    Secretary Moniz, nice to have you before the Committee.
    I am going to offer apologies on behalf of Committee 
members. I know that there is an awful lot going on this 
morning. We started our hearing just a little bit earlier to 
try to accommodate it. But if you see people popping in and 
out, it is not because of lack of interest in the Department of 
Energy. It is just a lot of conflicting priorities.
    So thank you for being here and if you would please 
proceed.

 STATEMENT OF HON. ERNEST MONIZ, SECRETARY, U.S. DEPARTMENT OF 
                             ENERGY

    Secretary Moniz. Well thank you, Chairman Murkowski and 
Ranking Member Cantwell and members of the Committee. Actually 
it's good to see many of you from our trip a few weeks ago in 
Alaska which was really excellent and, I found, extremely 
educational. So thank you for that field hearing.
    Turning to the budget, as was already said, the budget 
request for FY'17 is for $32.5 billion in discretionary and 
mandatory funding, an increase of ten percent from the FY'16 
appropriation.
    First I do want to emphasize that the request for the 
annual appropriations is $30.2 billion which is a two-percent 
increase over FY'16 appropriations and in fact, two percent 
also applies to the national security programs and to the 
domestic programs at the Department.
    This two percent increase is supplemented by a request 
totaling $2.3 billion in new mandatory spending authority. That 
mandatory spending proposal includes $750 million for three 
different R and D activities which I'd be happy to discuss, of 
course and $674 million for uranium enrichment D and D. The 
latter from the USEC fund.
    The $1.6 billion, I do want to emphasize, the $1.6 billion 
USEC fund is an existing, not new, mandatory spending account 
and our proposal is in keeping with the spirit of the current, 
the still current authorization that revenues from the 
beneficiaries of past uranium enrichment services rather than 
taxpayers at large, be used to pay the cost of D and D of the 
now shuttered facilities. And indeed in 2000, Congress 
recognized the applicability of the USEC fund to support 
Portsmouth and Paducah D and D. The USEC fund is actually only 
one of three funds totaling nearly $5 billion that exist, that 
are applicable, to this cleanup problem of uranium enrichment D 
and D.
    Finally, I do just want to at least in passing, 
acknowledge, which is very important, that underpinning all of 
our priorities is stewardship of the Department as a science 
and technology powerhouse for the country with an unparalleled 
network of 17 national laboratories. I can assure you and there 
have been recent reports that we are working very hard, we have 
been for several years, to strengthen the strategic 
relationship between the Department and our national laboratory 
network.
    I also just want to mention that we continue with a strong 
emphasis on cross cutting R and D initiatives. These have been 
extremely successful in our view and a major focus, the biggest 
increases in this budget in the cross cuts, is for grid 
modernization and for the energy water nexus. And of course, we 
also continue a very important cross cut in terms of advanced 
computation, particularly the move to exascale computing in the 
next decade to do everything from nuclear weapons to energy 
technologies to cancer solutions.
    The supporting budget details for each of these is provided 
in an extensive statement for the record which I request to be 
inserted into the record. I will just turn, in the remaining 
time, to some comments on Mission Innovation and why it merits 
your support.
    Senator Cantwell already gave quite a bit of detail about 
Mission Innovation in which 20 countries, including of course, 
the United States, seeks to double our energy R and D over a 
five-year period. I want to emphasize those countries represent 
over 80 percent, approximately 85 percent, of global, public 
energy R and D. So this is a big leveraging opportunity in 
terms of raising the level of global energy R and D.
    We believe Mission Innovation is long overdue. In 2010 the 
American Energy Innovation Council composed of CEOs of some of 
our major companies from multiple sectors recommended that the 
government triple investment in clean energy R and D. They made 
three key points. One, the innovation is the essence of 
America's strength. Two, public investment is critical to 
generating the discoveries in inventions that form the basis of 
disruptive energy technologies. And third, the cost of R, D and 
D are tiny compared with the benefits.
    The pledge to seek to double the level of government 
investment is ambitious, but needed. And as you know, Bill 
Gates, a leader of the AEIC, has recently met with a number of 
members and made public statements reiterating the importance 
of increasing government sponsored energy R and D.
    Now the objective of Mission Innovation is to greatly 
expand the suite of investable opportunities in clean energy 
technology. Certainly with the growth we are already seeing in 
global clean energy technology markets and in the United States 
as well, and the expectation of that will accelerate in the 
wake of the commitment by essentially every country in the 
world to meet their nationally determined contributions means 
this is indeed an enormous opportunity for American innovation 
and the American economy.
    The scope, I want to emphasize the scope of Mission 
Innovation does span the innovation cycle from the earliest 
stages of invention through initial demonstration with a focus 
awaiting toward the earlier stages of R and D. It also spans 
all clean energy supply and demand technologies and the 
infrastructure that enables those technologies to contribute.
    As already stated, the Mission Innovation is complemented 
by the breakthrough Energy Coalition, spearheaded again by Bill 
Gates. I just want to emphasize here another leveraging 
opportunity, billions of dollars of global, private capital 
coming to the table with exceptional risk tolerance, 
exceptional patience for return on their investment and a 
willingness for the leading technologies to go end to end, all 
the way to deployment. So we think this is a tremendous 
opportunity for our country.
    I just want to make a couple of words, if I may, on clean 
energy innovation, on regional clean energy innovation 
partnerships. Again, in our field hearing in Alaska we 
certainly saw how different parts of the country have very, 
very different regional needs. These, I want to emphasize, 
would be not-for-profit consortia, competitively selected to 
manage regional clean energy R and D portfolio and they would 
not be performers, they would be managers of this portfolio 
addressing regional needs through, presumably, mainly at least, 
through regional institutions.
    This approach tracks recommendations from the National 
Research Council's rising to the challenge which noted that, 
``until very recently U.S. Federal agencies have done little to 
support state and regional innovation cluster initiatives.'' 
And they recommended and again, ``that regional innovation 
cluster initiatives by state and local organizations should be 
assessed and where appropriate, provided with greater funding 
and expanded geographically.''
    So I think these initiatives, both of this initiative is 
very much in line with what has been a long standing desire 
expressed by the private sector and the research community.
    The Mission Innovation budget, we should emphasize, does 
also, of course, support increased investments in successful, 
ongoing innovation programs, many involving the national labs 
but such as ARPA-E, Energy Frontier Research Centers in the 
Science Office, advanced manufacturing centers, Bio Energy 
Centers, advanced transportation, advanced nuclear reactor 
technologies, advanced carbon capture technologies, to name a 
few.
    With that, Madam Chair, I would conclude my summary. I 
thank the Committee for its interest and support for our 
programs and look forward to our discussion.
    [The prepared statement of Secretary Moniz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Secretary. I appreciate you 
highlighting some of the things that we have been working on. 
It was several years ago when we introduced Energy 20/20 and 
brought up for discussion the energy/water nexus as a priority. 
It is good to see the Department taking that and running with 
it, as you have mentioned.
    Also highlighting the public/private partnerships that Mr. 
Gates is leading many of us on this Committee have had the 
opportunity to sit down with him, as well as you, for further 
discussion there, so we appreciate that.
    I want to go a little more parochial and my first round of 
questions will be focused on Alaska specific initiatives. 
Again, thank you for coming to Bethel. Thank you for your 
commitment to try to make a difference in places where there is 
no energy grid, so to speak.
    You mentioned at our field hearing that you recognize the 
DOE Office of Indian Energy was understaffed and that you were 
intending to add new staff members to the Alaska office. Can 
you give me any update when we might expect to see additional 
staff put in place there?
    Secretary Moniz. Yes.
    We have, well we have, the job description posted for the 
first of those positions. I'm certainly looking to get at least 
two positions filled in the next say, half year, but we'd like 
to get people there as soon as we can.
    The Chairman. Yes.
    Secretary Moniz. And we have to go through a process, 
obviously, of advertising and competing.
    We'd also hope and frankly, you could help make sure that 
we have an excellent applicant pool from Alaska itself because 
local knowledge could only help be most effective.
    The Chairman. Well, we want to work with you on that 
because, we too, think that there needs to be a priority there 
of those who have lived and worked and raised their families in 
the regions and know some of the challenges but also how we can 
overcome them.
    Secretary Moniz. And may I add?
    The Chairman. Yes.
    Secretary Moniz. The evident innovation that's been 
displayed already.
    The Chairman. Absolutely.
    Secretary Moniz. Within the state.
    The Chairman. Absolutely. Thank you for recognizing that.
    I want to ask more specific to the issue of microgrids 
themselves. You heard from our Alaskan expert, Gwen Holdmann, 
there at the University of Alaska's Center for Energy and 
Power. Recognizing that we have these islanded systems in 
Alaska, what are your views on the Department possibly changing 
the definition of microgrids to recognize that these systems in 
rural Alaska that are independent and not part of anybody 
else's grid are also a form of microgrids because we have come 
up with some definitional challenges here?
    Secretary Moniz. I will look into whether there is a 
precise definitional issue in the Department, but I can assure 
you we are and will be looking at both grid-connected 
microgrids and completely off grid microgrids. In fact, we are 
funding the Alaska microgrids partnership with three remote 
communities there.
    We have also had or have our national labs working on a 
design support tool for microgrids that will, you know, work 
with the Alaska. Of course we all know in Fairbanks, in 
particular, there's a very strong energy research center. So we 
are working on isolated microgrids. Indeed, as you use the word 
island, and in fact two years ago we produced a document on 
island energy systems that we are, that is drawn from 
experience in Hawaii. It's being applied in the Caribbean and 
many of the same physical features, in effect, occur in Alaska.
    The Chairman. Well, let's work on that one because if there 
is something that we need to correct, we would like to do that 
with you.
    Secretary Moniz. Okay.
    The Chairman. As we were saying hello here before the 
Committee began we discussed very briefly the DOE award that 
went to the Village of Igiugig and what they are doing within 
their river system to generate marine hydrokinetic energy. It 
is really quite exciting and I appreciate the Department 
stepping up and helping to facilitate that.
    The Office of Water and Power, though, appears to be 
emphasizing wave power research and demonstration projects over 
current projects, over tidal power technologies. Is that 
somehow purposeful?
    When you look at the budget that is one of the conclusions 
that you are left to draw, and we think that given what we have 
with the Kuskokwim and the Yukon, you saw the Kuskokwim when it 
was frozen solid, but it is moving underneath there. Being able 
to harness the power of our rivers as well as 33,000 miles of 
coastline is something that we are very, very interested in. Am 
I incorrect somehow in my observation that the emphasis seems 
to be on wave power research?
    Secretary Moniz. Well, we do have programs across all of 
the hydrokinetic and wave power. I will look more closely at 
that in terms of the balance of title, to be honest, but----
    The Chairman. Look at the funding because that is what got 
our attention.
    Secretary Moniz. Okay.
    But may I just add that the Alaska project with the 
turbine, and I will not attempt to pronounce the name.
    The Chairman. Igiugig.
    Secretary Moniz. Of the village. But I think it's been a 
tremendous success. You know, it was already pulled out and re-
optimized which gave a tremendously better performance in its 
second year. It significantly cut diesel fuel use there. And so 
now, with this new grant, it will be about taking advantage of 
that designing something which could be placed, of course, a 
number of other locations as well.
    The Chairman. It is really exciting.
    Secretary Moniz. Very exciting.
    The Chairman. Thank you for recognizing that.
    Secretary Moniz. Yeah.
    The Chairman. Senator Cantwell had to go off to another 
Committee, so let's turn to Senator Heinrich.
    Senator Heinrich. Thank you very much, Madam Chair.
    Secretary Moniz, I am very pleased to see your continued 
focus on getting WIPP reopened, and I want to thank you for the 
focus that DOE has put on safety throughout that entire 
process.
    I just want to ask you, are you on schedule and are there 
any budget or schedule issues that should concern me at this 
point?
    Secretary Moniz. Senator Heinrich, no. We believe we are on 
schedule for safely restarting operations later.
    Senator Heinrich. December?
    Secretary Moniz. Later this year.
    Senator Heinrich. Okay.
    Secretary Moniz. Exactly, yes. And the budget request for 
FY'17 is on track, for our program, right.
    Senator Heinrich. Fantastic.
    Secretary Moniz. We will, as you know, then, down the road 
need more capital funding for the full ventilation system.
    Senator Heinrich. Yes.
    Secretary Moniz. For full scale operations at the beginning 
of the next decade.
    Senator Heinrich. We look forward to working with you on 
that.
    Switching to Los Alamos real quick. I was hoping you could 
talk a little bit about why we do not have a current consent 
order in place with the state to be able to guide budgeting and 
spending issues as well as just what priority updating that 
consent order has with the Department of Energy.
    Secretary Moniz. No, it's very important, and that is under 
very active negotiation with the state. We are hoping that in 
the reasonably near future that will be completed, at least for 
comment, and that we will then be in a position to adjust 
appropriately our long range cleanup plan.
    Senator Heinrich. Great.
    As you know I have, for a long time, been a champion of 
efforts to improve tech transfer from our labs as an engine of 
domestic and economic development. I am really pleased with the 
small business voucher initiative from your Office of 
Technology Transitions (OTT) and also the recent technology 
commercialization fund.
    However, I understand that there may be some issues with a 
cost sharing requirement and I wanted to see if you could talk 
a little bit about what those issues are and what we can do to 
help solve some of that.
    Secretary Moniz. Well, first let me say, I appreciate your 
interest and that of a few other members in terms of the tech 
transfer business. And I would just say that there was quite a 
few initiatives, including establishing the OTT, the fund. 
We've also established, within that office, an Energy 
Investment Center. We just hired an excellent person in January 
to head that, so I think it's certainly been elevated in the 
visibility.
    Senator Heinrich. And we appreciate that very much.
    Secretary Moniz. Great, yeah.
    Senator Heinrich. I think a lot of people are excited about 
those efforts.
    Secretary Moniz. Good.
    With regard to the fund, yeah, I think our interpretation 
is that we need, kind of, 50/50 cost sharing there. But 
certainly more flexibility is, I mean, would always, frankly, 
be welcome. I mean, we, as you know, in various of our programs 
there are some cases, sometimes in which, 20 percent cost 
sharing is called for verses 50 percent. So that's certainly 
something we'd be happy to work with you on that.
    Senator Heinrich. I look forward to that.
    And if there are specifically authorization issues.
    Secretary Moniz. Yes.
    Senator Heinrich. And language issues that we can work with 
you on.
    Secretary Moniz. That could be helpful.
    Senator Heinrich. We are happy to do that.
    Obviously DOE's battery storage hub is now in its fourth 
year. If you look at the storage market broadly in this 
country, I think I saw a headline this morning that said it 
grew something like 243 percent last year. Obviously starting 
from a very small place, but growing incredibly quickly.
    This is going to be a critical link in the evolution of the 
grid from, sort of, a centralized grid that my dad knew as a 
lineman to the distributed structure that we see more and more 
around the country.
    Are there advanced battery chemistries beyond the lithium 
ion chemistry that we are all familiar with that are under 
development, that might meet future cost and energy goals or 
what are you seeing within that program that is exciting to you 
at this moment?
    Secretary Moniz. Well, first of all the JCESR hub, I think, 
has been doing very well. And as you say, actually and their 
first five period will end of the end of 2017 so we will soon 
be getting into the kind of reviews to talk about a potential 
extension. The hub is working both on grid scale and on 
transportation batteries.
    On the transportation side the principle activity is on 
Lithium Sulphur and they've made some excellent progress there. 
By the way and the goals are basically five times the energy 
density at one fifth the cost.
    And by the way, as you said, I want to emphasize that this 
is one of the areas and there are others. I love driverless 
vehicles, as an interesting thing.
    But the point is in these cases, including storage, you 
know, they're coming at us much faster than people thought. And 
I think it's not always recognized.
    So on the grid side the main activity is on some of the 
flow batteries where you use liquids instead of solid 
electrodes.
    Another chemistry being looked at is magnesium and the 
idea, sorry for the technical word, but it's the IR valence 
opportunity which can greatly increase the energy density.
    So it's a variety of issues at JCESR. I do want to 
emphasize that in addition to that hub, of course, I think, I'm 
not sure, I think we have about $225 million in various 
programs addressing energy storage. It's a game changer and the 
costs have come down, let's say for vehicle batteries by 70 
percent in the last six or seven years.
    Again, I think people are not internalizing all of this and 
you're seeing more and more storage introduced on the grid. For 
example, you're seeing novel uses of let's say, used vehicle 
batteries coming in for voltage support in grids.
    So a lot is happening, and when that penetrates to the 
consumer end, I think we will see another big shift.
    Senator Heinrich. Thank you, Secretary.
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Secretary, good to see you again.
    I just noticed on Friday the Wall Street Journal had a 
front page story and it was entitled, ``Europe Energy Escape 
Valve, U.S. Gas.'' So the escape valve for Europe for energy is 
U.S. gas. The Gulf Coast exports are expected to loosen 
Russia's grip on the market. That is the sub headline.
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    We have talked about this. The article discusses the first 
shipment of liquefied natural gas (LNG) from the continental 
United States. It took place last Wednesday. It explains that 
exports of U.S. liquefied natural gas will give countries like 
Lithuania, Poland and Bulgaria greater political independence 
from Russia. As one Lithuanian Mayor put it, ``U.S. LNG is more 
than just about gas. It's about freedom.''
    So the article goes on to cite that Deutsche Bank estimates 
that the U.S. could catch up with Russia as Europe's biggest 
gas supplier within a decade with each nation controlling about 
a fifth of the market. It is not going to be easy. Russia 
controls about a third of Europe's market right now and it may 
wage a price war, I read, to maintain its share of the market.
    Iran is also interested in exporting LNG to Europe. Senator 
Cantwell mentioned your role in the negotiations with Iran in 
January. The Wall Street Journal also ran a story on the front 
page of the business section, ``Iran seeks ways to ship out gas 
as sanctions ease.''
    [The information referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    That article explains that Iran may be able to export LNG 
to Europe within two years.
    I am concerned that Europe may develop a dependency on 
Iranian gas as it tries to reduce its imports from Russian gas. 
Now that is why I believe it is critical that we continue to 
make U.S. liquefied natural gas available on the world market.
    So the question is will you commit to acting promptly on 
LNG export applications for the remainder of this 
Administration?
    Secretary Moniz. Yes, we have and we will.
    If I may add a comment?
    Senator Barrasso. Please.
    Secretary Moniz. Because I completely share your interest 
and the importance of natural gas diverse supply for Europe. 
First of all, I would question that two years. I think that is 
not very likely, to be honest.
    But I want to emphasize that in addition to U.S. LNG the 
Southern corridor bringing Caspian gas is well underway. We 
have supported that and, frankly, directly been helping with 
some of the conversations there.
    But also we're very encouraged at the prospects of Eastern 
Mediterranean gas, Cypress, Israel, etcetera. And there's an 
interesting question there on Turkey, Egypt, going on.
    As an aside I'll be in Israel beginning of April and be 
able to discuss some of that gas development there as well.
    Senator Barrasso. The two-year idea came because the 
sanctions against Iran had stopped the construction of their 
LNG facilities. They have huge resources of natural gas and 
their thought that was in terms of the just renewing the 
construction that they could actually within two-years get 
things going.
    But along the line that you have been talking about in 
terms of other sources, I would like to turn to the Nord Stream 
2 pipeline which is one of those potential sources. This 
project, as you know, would run from Russia under the Baltic 
Sea directly to Germany, and the Nord Stream 2 would follow the 
path of the original Nord Stream pathway.
    [The information referred to follows:]
   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    It would significantly boost Russia's gas exports to 
Germany. So Russia is playing an additional role.
    Ten European countries, mostly from Eastern Europe are 
asking the European Union to block this project. These 
countries believe that this Nord Stream 2 would undermine 
sanctions on Russia, would increase Russia's political leverage 
over Eastern Europe.
    It is estimated that this pipeline would cost Ukraine about 
$2 billion annually in natural gas transit fees they would 
lose. Last week Richard Morningstar, a former U.S. Ambassador 
to the European Union, said that this is a really bad idea, the 
Nord Stream 2, and went on to say that if you want to kill 
Europe's LNG strategy, go ahead with Nord Stream 2, put much 
more dependent on Russia.
    So to date, Germany's Chancellor Angela Merkel has, kind 
of, defended the project. We discussed this issue last October 
in the Committee. Since then I have heard very little from top 
ranking Administration officials.
    So, does the Administration have a plan to stop this 
project and, if so, what is it?
    Secretary Moniz. Well clearly this is, in the end, a 
European decision. I would note that the European Commission 
has certainly emphasized the diversity of supply and this 
project would do nothing to increase diversity of supply. It 
may even, as you said, may even strengthen----
    Senator Barrasso. Add to more dependence on Russia.
    Secretary Moniz. Correct.
    And it certainly is a geopolitical tool as well in terms of 
Eastern Europe and Ukraine. So we remain active in discussions 
but clearly it's a European decision, and there is considerable 
public disagreements within Europe.
    Senator Barrasso. Well, let me be clear. I think President 
Obama should do everything he can to kill this Nord Stream 2. I 
just wonder if the President has discussed this with Chancellor 
Merkel.
    Secretary Moniz. Well I'm not free to discuss what those 
conversations are.
    Senator Barrasso. Thank you, Madam Chairman.
    The Chairman. Thank you.
    Senator Franken?
    Senator Franken. Thank you, Madam Chair.
    Mr. Secretary, I am pleased to see that the Administration 
has increased funding for our shared priorities of energy 
efficiency, renewable energy, storage and research.
    I want to turn to something that you and I have discussed 
in the past, the Tribal Indian Energy Loan Guarantee Program. 
This program was authorized by the Energy Policy Act of 2005 to 
help tribes overcome challenges in securing financing for 
energy projects, but it has never received Federal funding.
    This program would allow DOE to guarantee loans issued to 
an Indian tribe for energy development. Developing these energy 
resources would bring high quality jobs to Indian Country, 
which Indian Country desperately needs. That is why I support 
this program as do many members of this Committee on both sides 
of the aisle.
    Last year you had put in your budget about $11 million for 
that program which would have leveraged about $90 million in 
projects. I was very disappointed to see that the program was 
not included in the President's budget request. I am going to 
do everything to make sure that Congress appropriates funding 
in this bill because it has a lot of allies.
    Secretary Moniz, I know that this is an issue that you care 
about. We have talked about it in this Committee. Would you 
also press Senate appropriators to fund this program?
    Secretary Moniz. As you say, I am certainly very, very 
supportive of the Indian Energy program. I think it's 
important. And I would note that a piece of the current energy 
bill in the Senate, I think, is a step forward by providing for 
the tribes' and Alaska Native Corporations' access to the 
Section 17, Title 17 Loan Program. So I think that's a good 
start.
    I would note that it would be even more powerful if it also 
included, at least modest access, to the credit subsidy part of 
the Energy Efficiency and Renewable Title 17 Loan Program.
    Senator Franken. Is it the 1703 program?
    Secretary Moniz. 1703 program, yes.
    Senator Franken. Yes, well I was going to ask you about 
that, but thank you.
    Let me move on to the transformer reserve. In 2013 we saw a 
gunman attack a substation in Northern California and severely 
damage 17 transformers. Fortunately, this incident did not 
cause major outages. However, this attack made it clear that 
our grid is vulnerable to massive disruptions from physical 
attacks and even cyber-attacks or extreme weather.
    Mr. Secretary, what is the current capacity for utilities 
in terms of having a reserve of transformers that could be used 
in emergencies to respond to a coordinated attack on our grid?
    Secretary Moniz. Well some of the large IOUs have taken 
some steps in this direction. But if you look across the 
country as a whole, I would say we are still quite vulnerable.
    We are now doing a significant study of this, and we will 
report that back to the Congress. And depending upon its 
outcomes, of course, we may talk about some Federal role in 
establishing a more complete coverage.
    We might also talk about that and frankly we have talked 
about it as potentially a North American strategy, particularly 
with our very strong integration with the Canadian grid.
    Senator Franken. Yes, well I do know that we have a study, 
but I filed an amendment to the Energy bill to authorize DOE to 
create a reserve, to create a strategic transformer reserve. 
This authorization was included in the Energy bill passed out 
of the House. It is my understanding that the Edison Electric 
Institute and some others have expressed concerns that a 
Federal reserve would be duplicative and could interfere with 
the industry's current voluntary sharing programs.
    Do you think that the industry's voluntary sharing program 
goes far enough?
    Secretary Moniz. Well I think that's part of the study that 
will come out. But as I said, I mentioned the independent or 
the investor-owned utilities which EI represents.
    Senator Franken. Right.
    Secretary Moniz. But they do have many other structures for 
electricity delivery in this country and I don't want to 
prejudge the outcome of the study, but I think that that 
diversity of utility structures will probably end up suggesting 
the need for some----
    Senator Franken. Some reserves.
    Secretary Moniz. Some reserve, yeah.
    Senator Franken. When will the study be completed?
    Secretary Moniz. It's due in December but we had started 
it, actually, earlier than the congressional directive to do it 
within one year. So we may be able to get it there earlier.
    Senator Franken. Okay. Well thank you very much, Mr. 
Secretary.
    Secretary Moniz. Yeah.
    Senator Franken. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Daines, you are up next.
    Senator Daines. I used to be in the supply chain business. 
This is called ``just in time'' right here.
    Secretary Moniz, good to see you again. I very much enjoyed 
our time in Alaska. I enjoyed talking about gravitational 
waves, the 27th dimension and getting insights into your 
amazing mind in terms of nuclear physics.
    Secretary Moniz. And your insights into social media. 
[Laughter.]
    Senator Daines. It was a great snapchat trip.
    On that visit one of the aspects that we focused on was the 
energy challenges certainly facing Alaska Native villages and 
the Office of Indian Energy. This office was created by 
Congress in 2005 and has a statutory authority to facilitate 
energy development in Indian Country.
    I recognize your budget asks for nearly $23 million above 
the enacted $16 million for FY'16, and I'll be submitting some 
questions for the record on this account.
    Your budget proposes $600 million in FY'17 including $240 
million of which is available from repurposing funding for 
clean coal projects, $32 million below the enacted level.
    At the same time the budget proposes $2.9 billion in energy 
efficiency and renewable energy which is $829 million above 
FY'16.
    We have stepped back in looking at the global demand for 
coal. It is going to increase in the coming years. When you 
look at the pie charts of coal consumption, the U.S. consumes 
about ten percent of the world's coal. The rest of the world 
consumes the other 90 percent.
    As we think about global stewardship, environmental 
stewardship, I believe the United States should be leaders in 
clean coal technologies and I am concerned your budget proposal 
does not reflect that sentiment.
    I spent five years working in mainland China for Proctor 
and Gamble and saw first-hand the challenges they face 
environmentally over there. I am just concerned that if we do 
not continue to lead and invest in clean technology, clean 
fossil fuel technology, that we may abdicate that leadership 
perhaps to China or to India or somewhere else or perhaps, 
nobody takes those reins and leads with it.
    I think taking away money from one of the few larger scale, 
clean coal technology programs and repurposing it for the 
projects is troubling. This is at a time when the 
Administration through the EPA Power Plan is threatening to 
take away affordable power from the grid such is the case with 
the coal strip plant in my home State of Montana.
    So the question is why are we undercutting projects that 
are applying clean coal and carbon capture technologies at a 
commercial scale?
    Secretary Moniz. Well, let me make a few points, Senator 
Daines.
    First of all, by the way, I might note that I think just 
today there was an article that China announced that its coal 
production, its coal use went down by three percent in one 
year. They probably have peaked in terms of use and they're 
closing another 1,000 coal mines in China. So that's an 
interesting development.
    Now----
    Senator Daines. Excuse me, just on that point, that other 
data suggests that China is building a new coal-fired plant 
every ten days for the next ten years. And as we look at the 
global forecast between now and 2040 for coal consumption and, 
of course these are all forecasts and you take them based on 
assumptions, but the global coal use looks to increase by a 
most respectable forecast between ten and 15 percent from where 
we are at today and 2040. So the trend line, globally, is still 
going up for coal.
    Secretary Moniz. No, I agree.
    But China is by far the largest coal user. It is 
significant, I think, that they have come down several percent 
in 1 year and may have peaked. I'm not saying they have, but 
they may have peaked.
    Senator Daines. Right.
    Secretary Moniz. And as far as building, they're doing a 
lot of shutting older, inefficient plants, replacing them with 
more modern plants, of course, addressing their very, very 
serious pollution problems.
    In terms of our domestic program. First of all, I do want 
to emphasize that there are many aspects of support for coal 
going forward that are not simply in the fossil energy budget. 
I'm not going to go through all of them, but includes, in 
particular, I do want to emphasize the probably $5 billion both 
production tax credits and investment tax credits proposed for 
carbon capture and sequestration. So that's a pretty big, we 
think, we hope, incentive toward deploying new projects.
    With regard to the fossil energy support, we, I would, we 
did not undercut any projects. We have three large projects 
that are either already operating, one for three years, a 
carbon capture project and some that are coming on in 2016, 
we'll have three. We did do the repurposing of projects that 
even though we gave extensions of time could not meet the 
criteria, could not meet any financial close. So those funds 
being repurposed to actually develop new, what we hope will be, 
very competitive technologies. For example, going to things 
like ten megawatt pilot projects for new technologies like 
chemical looping and oxy combustion which could be important 
for the future.
    Another point is that apart from those explicitly carbon 
capture projects, R and D and/or tax incentive, we also have 
going on things that are, you know, they're not called coal, 
but they are very directly relevant to, for example, higher 
efficiency coal plants. One is we have a substantial increase 
for our pilot program on super critical carbon dioxide cycles 
which would get much higher efficiency for any thermal plant, 
of course including coal, and it's led by fossil because of 
coal basically. Secondly, things like in the Office of Science 
and in fact, we propose a new cross cut initiative in this 
budget for advanced materials in extreme environments that 
would include going to the very high temperatures and pressures 
for going to ultra, ultra, super critical coal plants. So 
there's quite a bit in there.
    Senator Daines. Thanks for the insights on that. I am out 
of time but just in closing, the projections, coal use globally 
will be higher in the next 20, 30 years than it is today by 
most forecasts. I just hope the United States can continue to 
lead in clean coal technology. I think as leaders here we will 
be the best guardians overall of global stewardship, and I 
would like to see the continued investments here and certainly 
in clean coal technology.
    Secretary Moniz. Well and I think that this portfolio of 
investments is one that, I think, will accomplish the goal.
    Senator Daines. Okay.
    Thanks, Secretary Moniz.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    Mr. Secretary, thank you again for working so diligently on 
this budget proposal.
    As you can imagine I have, well, I have many questions. But 
I have four specific questions, and they are all related to 
Hanford, as you can imagine--a greatly important subject for 
our entire nation but particularly important in the State of 
Washington as we are integrally involved in making sure that 
the tri-party agreement and many things are lived up to.
    I have a question about the buildings I mentioned, the 324 
and the 618-10, and the fact that this budget decreased. I 
think I have said practically to every Energy Secretary that I 
have had the opportunity of working with since I have been in 
the Senate, I firmly believe that the Energy Secretary should 
be for life or until Hanford is cleaned up because as I 
mentioned with a budget number----
    Secretary Moniz. That would extend beyond life. [Laughter.]
    Senator Cantwell. I hope not.
    I think the issue is that with such a large budget need, 
from time to time people come in with ideas and notions of how 
to, they think, cut corners, save dollars. I have seen so many 
different proposals that have gone by the wayside where people 
try to implement something, it doesn't work, and then they come 
back a few years later and fold on that only to cost us 
billions.
    So one of the things I wanted to discuss, on this river 
corridor project, they are making good progress but why not 
continue to make progress, given that this radioactive plume is 
so close in proximity to the river and that we want to make 
sure that there is an important Hanford-wide service account, 
which ensures proper maintenance of the infrastructure and 
makes sure that we continue to move ahead? So that's one 
question.
    Second, I want to understand what we are going to do in the 
next year on additional public meetings for focusing on defense 
waste cleanup. That is an initiative that, you know, separating 
commercial and defense waste and moving forward on that 
proposal--is very important for us to continue to do. I know 
that there were cuts to the community support budget. This is 
something that is very important to the people in the Tri-
Cities.
    Last year there was a decision made to decouple defense 
waste and commercial waste, and then there was a process of 
holding meetings to define what consent agreements mean. I have 
noticed that this proposed budget cuts the community and 
regulatory support. So this is important to places like Benton 
and Franklin and Grant counties so that they can focus on 
having comments in this process.
    Lastly, I also see that the Hanford National Historic Park 
budget does not reflect a contribution from the Department of 
Energy, and I am concerned about that and want to make sure 
that DOI and DOE are going to work together to move forward on 
that.
    But my main question is will you take a second look at this 
cleanup priority for the river corridor? Looking at that budget 
cut and looking at how challenged we are on the site itself, 
what can we do to remedy that cut?
    Secretary Moniz. Well, thank you, and I think I have the 
four questions.
    Well first of all, of course, we'd be very happy to sit 
down and kind of, work through what the constraints and the 
opportunities are in the budget. Obviously we are working with 
an overall constrained budget in which we try to optimize for 
the highest priorities. And frankly, the area across the 
country which includes, but includes Hanford, for sure, that is 
the, in many ways, we consider to be the highest risk is the, 
our tank waste, you know, addressing that. And so we certainly 
have a very high priority at three sites for tank waste.
    Now on the river corridor, specifically over the FY'17 
budget for Richland. First of all, I very much appreciate your 
acknowledgement that there's been a lot of progress along the 
corridor. The budget will support several major priorities. We 
could always do more but it will, major priorities, to finish 
the demolition of the plutonium finishing plant which has 
always been viewed as one of the most hazardous places, to 
remove sludge from the K basins very, very close to the river, 
to continue, certainly in the plateau, to do the pumping, the 
cleanup of the undergroundwater.
    And with regard to Building 324, we are moving forward but 
there are safety issues and to clean up underneath the building 
is going to require a robotics approach. And we are developing 
it but we feel that to do it safely we're going to have to 
succeed in developing that technology.
    Senator Cantwell. So you think this is partly a timing 
issue about the technology that is needed?
    Secretary Moniz. Yes. So we're working on that, but we need 
to develop a remote capability to be able to clean up the area 
underneath the building.
    Senator Cantwell. Would you commit to sitting down with 
Senator Murray and I and discussing this issue?
    Secretary Moniz. Sure.
    Senator Cantwell. In which we might remedy.
    Secretary Moniz. I would be happy to, of course, yes.
    But again, we're also, I'm in the spirit of trying to 
recognize physical realities and I know you are as well. And 
that was certainly part of the whole, I think you indirectly 
alluded to it, the necessary redesign phased approach to the 
WTP, I mean, it was an example where we just had to recognize 
the physical realities, the safety issues, the criticality 
challenges to change that approach which, I think, is going 
along well in terms of addressing the low activity waste.
    But obviously, as you know, we are still in litigation and 
discussions with ecology about the consent agreement.
    On the public meetings----
    Senator Cantwell. I am over my time and I want to respect 
my colleagues. So will you provide answers in writing?
    Secretary Moniz. Okay.
    Senator Cantwell. On those other----
    Secretary Moniz. Okay.
    Senator Cantwell. Other three from you. That would be so 
helpful.
    Secretary Moniz. Sure.
    [The referenced information was not provided as of the date 
of printing.]
    Senator Cantwell. Or if we have a second round you and I 
could talk about it.
    I am sure, Madam Chair, we could have an entire meeting on 
Hanford, and I am not sure we shouldn't at some point in time. 
[Laughter.]
    Senator Cantwell. Again, with another $107 billion needed 
to clean up this site, I think our colleagues need to be very 
well aware of what the United States' obligations are here.
    Thank you.
    The Chairman. Thank you.
    Secretary Moniz. May I just add a comment, Madam Chair, on 
that?
    The Chairman. Very quickly.
    Secretary Moniz. Just to say that, yes, just to say that, I 
think, this is, again, a case that where if one sees, if 
members can go there and see what, for example, a waste 
treatment plant is about. It's kind of eye opening and one 
understands the challenge.
    The Chairman. Senator Portman?
    Senator Portman. Thank you, Madam Chair, and thanks to 
Senator Cantwell because you could have gone on and on. 
[Laughter.]
    Not that you do, but you could have.
    I have got to tell you, I found your comment just then very 
interesting. You said if members would just go and see these 
cleanup sites they would understand it. As you know I am 
profoundly disappointed in the way you have handled the cleanup 
at Piketon and the new technology, the uranium enrichment 
technology, that you just pulled the plug on.
    In the confirmation hearings where I supported you, 
strongly, I asked you if you would come out and take a look at 
Piketon. And I have asked you at every one of these hearings. I 
think you would have a different perspective if you would come 
out and see it.
    It is not just a huge facility, thousands of acres, but the 
building alone for UET is a $6 billion, Federal taxpayer 
initiative that you are pulling the plug on. I just think it is 
really disappointing.
    I wish I could talk to you today about energy efficiency, 
and I thank you for supporting the Portman/Shaheen legislation 
which is part of the broader Murkowski/Cantwell Energy Policy 
Modernization Act that we expect to have on the floor next 
week.
    I also wish I could talk to you about the exciting new work 
that Bill Gates is doing with others on this early stage energy 
innovation fund, and you talked about that, but I have got to 
talk to you about Piketon.
    I mean, it is amazing to me that we are pulling the plug on 
the one American source, the only American-owned source, of 
enriched uranium which we need for nuclear power, we need for 
our nuclear Navy, we need for tridium for a nuclear arsenal 
which you have acknowledged.
    We have to have it, and we need it for our non-
proliferation efforts. We cannot go to the countries of the 
world and say, we are going to provide you enriched uranium 
because we do not have any source now, thanks to the decision 
that you just made.
    I will tell you, 60 people lost their job this week. Their 
last day of work is going to be tomorrow. The remaining 140 
people are going to work themselves out of a job because they 
are forced to deconstruct our best technology, the best 
centrifuge technology that we have, that you have supported. 
You said it is the best technology. And you know, they are 
going to dismantle this stuff and throw it into the desert.
    I think it is just wrong, and I think it is going to be 
very expensive for the taxpayers. You have said in your own 
reports that we are going to need more Logan-enriched uranium 
to produce tritium for our nuclear arsenal within ten years. 
You have also told me, or at least I have heard from other 
experts, maybe you even told me this specifically, you can 
counter me if you like, that it would take probably seven years 
at a minimum to reconstruct what we have there now.
    You lose the supply chain, you lose the workers, and you 
lose all this expertise. And for those who do not follow this 
closely, you have to have a lot of centrifuges lined up in 
order to have a train of centrifuges. That is what we have now 
at Piketon. We have 120 of them.
    We are pulling the plug on all those, and as Americans we 
should all be concerned about this. We are going to take down 
to Oak Ridge, I guess, a couple of centrifuges and do some 
research. It is a little like saying that we are going to test, 
sort of, a single computer chip to see if a laptop will 
function because we won't have the ability to test the train 
anymore. Regardless of how you feel about nuclear energy, we 
need to have this capability. It is part of our national 
security.
    So I would just ask you today, you said you can find 
various sources of enriched uranium out there and, sort of, 
pull them together, stockpiles that are out there to be able to 
keep things going for the next ten years. Then you said you 
have identified some options that could extend that timeline. 
You said it carried, they carried, significant cost and risks 
associated with them. Let's say that you cannot find those 
other sources after the first ten years. Then you would have to 
reconstruct a centrifuge capability in the United States of 
America, not relying on the Russians and others. How long would 
it take to rebuild that capability?
    Secretary Moniz. Well thank you, Senator.
    Obviously we do have a disagreement here. But let me say a 
few things, if I may.
    Number one, because I have been to the site and I've seen 
the buildings.
    Senator Portman. When were you at the site?
    Secretary Moniz. No, that was twice in the, during the 
Clinton years. I've not been----
    Senator Portman. During the Clinton years, yes. I have 
asked you to come during these years to see what we are doing 
there now. I am talking about----
    Secretary Moniz. No, I know. So I was about to add.
    Senator Portman. The ACP project that was not there then.
    Secretary Moniz. Well, no, but the--well the building was 
there and there were centrifuges.
    Senator Portman. But not the ACP project. The ACP project 
we just got back in the 2000's.
    Secretary Moniz. Well, there were ACP----
    Senator Portman. Yes, but what I want you to see is, what 
is going on now. I want you to talk to these people that work 
there and see what we are doing.
    Secretary Moniz. I would be happy to talk about a visit 
again.
    Senator Portman. And to see the cleanup which we are going 
to talk about in a second.
    Secretary Moniz. I'd be happy to do that, to go there.
    Senator Portman. Well you said that before. What's---- 
[Laughter.]
    Secretary Moniz. No I have not said that before with all 
due respect.
    Senator Portman. Yes, you have. You said you would be happy 
to do that and you have not come out.
    Secretary Moniz. We can work on a schedule.
    Senator Portman. Well, that is great.
    Secretary Moniz. Okay.
    Senator Portman. I would love to do that.
    Secretary Moniz. Do that.
    Second, again, we are not pulling the plug on the 
technology. The third, we absolutely still need a national 
security-based capability, sometime, probably in the next 20 
years or so. If we had several billion dollars now we could 
start building that national security train.
    The current machines, as we've discussed before, will not 
be part of that. It's not like they are the beginning of it. 
They are not part of it, and the problem right now is that we 
have passed the useful life of that cluster. But we do need a 
national security train. And right now, I've said it before, 
today, certainly, the only American technology that we have is 
the ACP.
    Senator Portman. Is that project.
    Secretary Moniz. Yeah.
    Senator Portman. Let's talk for a second about the cleanup.
    As you know, in 2008 President Obama made all kinds of 
commitments that he was going to clean it up. You, yourself, 
have made commitments. In 2009, DOE said they were going to 
accelerate the cleanup to complete the work by 2024. This is 
for the old technology, for those who do not have to follow 
this as closely as some of us do. I mean, the old technology is 
gone. It is just a matter of cleaning it up. And the cleanup is 
incredibly important for the community, for the environmental 
impact, also for reindustrialization of the site.
    2024. So the latest is because of the lack of funding from 
the Administration which we have to fight for every year to put 
back in the appropriations process because you under fund it 
every year.
    2044.
    So let me just ask you this quickly because my time is 
expiring. I apologize to my colleagues, but this is important 
to me.
    We almost had 500 workers at the site laid off just before 
Christmas last year. We came in at the last minute, members of 
this Committee and others, and saved them.
    This year you put in your budget, okay, we are going to put 
more funding in for the cleanup to try to at least keep the 
people that are there, not to meet the commitment you said 
before, but at least keep people who are there. But you are 
using funds from this old USEC corporation that you told us 
before are not available. And more than half of the cleanup you 
are proposing, the new funding, is going to come from this. 
Tell us why you think that funding is currently available. 
Where is the authority for it and where is the offset for it 
since it is a mandatory spending?
    Secretary Moniz. Well first of all, I don't believe I said 
it was unavailable. Quite the contrary, we have three funds 
totaling almost $5 billion which can be used for this.
    Senator Portman. The Department's request from 2009 to 2015 
characterized the fund as, ``unavailable.'' Period.
    Secretary Moniz. That was a decision taken. It was not, 
it's not like it's unavailable by statute or anything. It's 
mandatory funding.
    Senator Portman. Oh.
    Secretary Moniz. And we proposed an offset, a direct offset 
which would be returning to the quarter mil per kilowatt hour 
from the users of the facility. This is the way it was. When 
that fee was discontinued and it was a higher fee, when it was 
discontinued the full cost of the D and D at the three sites 
was not understood. We now say it's probably like $22 billion. 
We now understand that. And so the current authorization is 
that the users pay for it. So it will be about a quarter mil 
per kilowatt hour would cover the offset for using the USEC 
fund which is an existing, authorized fund which has been 
sitting there.
    Frankly back in 2000 there was an explicit action taken of 
the Congress, frankly, Senator McConnell led that for 
explicitly recognizing the utility of the USEC fund to address 
D and D costs.
    So----
    The Chairman. Mr. Secretary, I am going to ask you to wrap 
up.
    Senator Portman. Madam Chair, I apologize to my colleagues.
    So if you could, Mr. Secretary, please give us in writing 
what the authorization is, why you think it is now available, 
even though previously you said it wasn't. And then also, the 
offsets in more detail.
    Senator Portman. Thank you very much, Madam Chair.
    Secretary Moniz. And we can send somebody up to talk to you 
if you like, our CFO.
    Senator Portman. Yes.
    The Chairman. Senator Warren?
    Senator Warren. Madam Chair.
    Thank you for being here, Mr. Secretary.
    For months the massive gas leak at Porter Ranch, California 
spewed methane from an underground storage facility into the 
air. The leak was finally sealed a few weeks ago but not before 
it released the same amount of greenhouse gases as half a 
million cars driving for an entire year.
    It was the worst natural gas leak in history, the climate 
equivalent of the BP oil spill, but it is not the only leak. 
There are a huge number of gas leaks from pipelines and storage 
systems, some of which have been ignored for decades.
    In Massachusetts more than 20,000 leaks have been 
identified in the Boston area alone. They spew about $90 
million worth of methane into the air every year. Massachusetts 
has decent information because state law requires utilities to 
report every gas leak.
    Secretary Moniz, do we have any similar national reporting 
system in place to track all of the gas leaks and how much 
methane they are emitting?
    Secretary Moniz. Senator Warren, well first of all, of 
course, I think, as you know, the Department of Energy does not 
have that.
    Senator Warren. No, I understand that. I'm not----
    Secretary Moniz. But PHMSA does.
    My understanding is that PHMSA requirements, although I do 
emphasize we could check with them and make sure we are giving 
you the correct information, that my understanding is that 
apart from unusual circumstances leaks above three million 
cubic feet need to be reported to PHMSA directly. To give you a 
scale, by the way, Aliso Canyon was five billion----
    Senator Warren. Yes.
    Secretary Moniz. Cubic feet.
    But as you say, and we have been working on this directly 
for the last couple of years. The leaks are not only in 
production or in that case, in gas storage, but all the way to 
the, especially urban, distribution systems, like Boston.
    And in our Quadrennial Energy Review we made a specific 
recommendation for accelerating the replacement of those pipes 
and giving support for low income people. And that was 
discussed. It was temporarily, at least, in the House bud 
bill----
    Senator Warren. So Secretary Moniz, let me just--I have got 
more to this question.
    Secretary Moniz. Good.
    Senator Warren. Let me just take that as a no. There is not 
a national reporting system that requires that all gas leaks be 
reported and that requires how much methane that is being 
leaked?
    Secretary Moniz. To my knowledge, no.
    Senator Warren. It is just not happening.
    Secretary Moniz. To my knowledge.
    Senator Warren. I am very concerned about the lack of 
information about natural gas leaks because it permits the 
problem to go on without being fixed. I am especially worried 
because it is not clear who is supposed to take charge of this 
problem.
    With Porter Ranch and with other underground storage 
facilities, Federal regulators pass the buck to the State 
regulators. And in California we know that the State regulators 
then fell down on the job.
    The problem, as you rightly point out, is not limited just 
to these underground facilities. There are problems across the 
entire natural gas transmission, distribution and storage 
infrastructure.
    So again, I know that this is not your agency's 
responsibility, Secretary Moniz, but can you explain who 
exactly is responsible for overseeing America's natural gas 
infrastructure?
    Secretary Moniz. Well again, for pipes in general, moving 
gas and oil and other commodities, PHMSA, in the Department of 
Transportation, is responsible. EPA then also has 
responsibilities to the extent that it impacts air quality.
    Senator Warren. Yet we have seen the Federal regulators out 
in California just hand this over to the states.
    Secretary Moniz. Well, yes, the states have, of course, 
California has an extensive apparatus and I actually met with 
CEC Chairman Weisenmiller yesterday, but----
    Senator Warren. Well I am concerned.
    Secretary Moniz. Yup.
    Senator Warren. That the regulations here just are not 
working that leaks occur, sometimes large and dangerous ones, 
and that we are not doing enough to fix them. In many cases it 
appears that regulators do not even know that they exist.
    This issue seems especially critical right now because in 
many regions, including New England, big, new natural gas 
pipelines and other gas projects have been proposed. But until 
there is a clear accounting for the scope of the problems with 
the existing pipelines and storage facilities, until there are 
meaningful steps to repair those problems and safeguard our 
communities and our climate from the risks that they pose, it 
is hard to support building any more of them.
    So, that is it for me.
    Thank you.
    The Chairman. Thank you.
    Senator Flake?
    Senator Flake. Thank you and thank you for your testimony.
    As a result, as you know, of the year's long drought on the 
Colorado River along the basin there has been a significant 
reduction in hydro power generation. I understand that Hoover 
Dam has seen approximately about a 25 percent reduction in 
power generating capacity since 2000, falling from 
approximately just over 2,000 megawatts to 1,500.
    These reductions clearly have implications for power users 
and power marketing administrations. These are an important 
source, not just because of the power they provide, but the 
load balancing functions as well.
    Can you tell me what you are doing with your budget to 
address or the planning, the R and D on how to deal with, we 
often look at just the water function but the power function as 
well. And what is DOE doing to address that?
    Secretary Moniz. Senator Flake, in our budget actually, we 
propose a more than tripling of our energy water program in 
FY'17 to nearly, I forget exactly, nearly $100 million because 
we think the whole set of energy water challenges is so 
important.
    One part of that is a new, which may not be useful in 
Arizona, but a new desalination hub for advanced R and D on 
much more energy efficient desal. But it also includes the 
energy water interactions for power. It includes waste water 
treatment.
    And certainly not in the energy water program, but 
different from that, we support a lot of modeling about the 
implications of continuing warming on drought to understand 
those patterns so that we can then respond in a system way.
    But it's a very, as you well know, extremely serious.
    Senator Flake. Thank you.
    In October GAO issued a report on unobligated balances 
analyzing where the balances exist in certain agencies, the 
size of these balances and the opportunities for savings.
    Among these findings GAO noted the unobligated carryover 
balances for WAPA, or the Western Area Power Administration, 
exceeded the levels necessary to maintain certain activities 
and manage risk for those activities. For example, in 2014 the 
unobligated balance was about $92 million or $40 million more 
than the officials deemed necessary to avoid risk.
    What is the DOE doing to implement the recommendations that 
GAO made with this budget request?
    Secretary Moniz. Senator, I'll have to look at that 
offline. I'm not aware of the unobligated balance issues at 
WAPA, specifically, so I'll have to get back to you on that.
    Senator Flake. There is continuing concern among the users 
about WAPA and the lack of transparency there and how funds are 
spent and obligated. It is an issue that we have had for a 
while that I will encourage you to look at.
    Secretary Moniz. And if it would be helpful, certainly the 
Administrator, Mark Gabriel, would be happy to have them come 
in and meet with you, if that's helpful.
    Senator Flake. That would be.
    In a related question, in the PMA portion of the budget 
WAPA is seeking about 51 new FTEs to, among other things, I 
think, deal with cyber security challenges related to the grid. 
But Southeastern and Southwestern Power Administrations 
presumably have the same needs and have addressed those needs 
without the need for new FTEs.
    Can you also look to see whether those requests are 
justified?
    Secretary Moniz. We certainly will. I will note that WAPA, 
the fact is on the output side, they do provide energy at a 
pretty attractive price. And WAPA is a much more complicated 
system than SWAPA, for example. And with all of the challenges, 
cyber, I mean, NERC and NERC requirements, drought, certain 
parts of their stuff, old infrastructure renewal. So they do 
have a major need but----
    Senator Flake. I can understand that.
    Secretary Moniz. Yes.
    Senator Flake. Fifty-one FTEs as opposed to zero on the 
other side seems a little off.
    Secretary Moniz. We'll look at that. Thank you.
    Senator Flake. I would like to know as you look into that 
whether this budget request relies on these aforementioned, 
unobligated balances to cover those FTEs or if that is where 
we--how they are doing that.
    Secretary Moniz. Okay.
    Senator Flake. Thank you.
    Secretary Moniz. And I'm just--the last note just to make 
that unobligated balances, we have to look very carefully 
because often they really are vector specific projects. But I 
don't know in this case.
    Senator Flake. Okay. Thank you.
    The Chairman. Senator Manchin?
    Senator Manchin. Thank you, Madam Chairman, and thank you, 
Mr. Secretary, for being here again.
    Everybody has been talking about all the hardships they 
have and Senator Portman was very adamant about the loss of 
jobs. I just want to verify some things.
    First of all, the EIA energy projections in basically in 
2013, I think, your energy projections at that time was or 
their accuracies were coal was about 39 percent of the energy 
being produced for the United States. Gas, natural gas, was 27. 
And then nuclear was 19. Renewables was 13, and petroleum was 
one. In 2014 you still had the projections and if they have 
changed, I would like to know.
    You have got coal at 34 percent, expected to produce the 
energy the nation needs up to 2040. Gas goes up to 31 percent. 
Nuclear goes down to 16 percent, renewables come up to 18 
percent, and petroleum stays at about one.
    Have those been changed at all, projections up through 
2040, or do they seem to be fairly accurate, do you think?
    Secretary Moniz. I don't know if the latest EIA reports 
have changed that but on the ground things have certainly 
changed. So last year, 2015 I believe, coal came slightly below 
that and natural gas slightly above that. Certainly for at 
least for 5 months of the year natural gas had a higher market 
share than coal last year.
    Senator Manchin. Because of price, yes.
    Secretary Moniz. I think nuclear hung closer to 19 for last 
year but if you mean out to 2040 I'd have to go back and----
    Senator Manchin. Okay, I am just saying so in that 
ballpark, let's say if coal is either at 34 or 30, whatever it 
is going to be in that 30 range. If it, I mean----
    Secretary Moniz. I think I've seen some projections that 
would go lower.
    Senator Manchin. Lower.
    Secretary Moniz. Below 30, but----
    Senator Manchin. Let me tell you what is happening, Mr. 
Secretary, is, just to give you an idea, just a sketch of what 
is happening in this and the unbelievable damage that has been 
done to West Virginia.
    I will give you just three counties, three of my most 
highest producing coal counties in Southern West Virginia, 
Mingo County, Logan County and Boone County. That is in 
southern West Virginia. That is where our highest qualities of 
coal come from, low sulphur, stoking coal. In 2009 the 
unemployment rate in Mingo County was 4.9 percent, and it is 
now 11.9 percent. In Logan County it was 4.5 percent, and it is 
now 10.7 percent. In Boone County it was 4.3 percent, and it is 
now 8.8 percent.
    In just between July 2014 and July 2015 in my State of West 
Virginia, we lost 19,000 jobs, 19,000 jobs. And we are the only 
state losing population.
    It just seems, Mr. Secretary, that this Administration is 
so insensitive to the damage it has done economically without 
trying to help us transition. We are not arguing against 
technology. We are, you know, renewables, we are for all that. 
But if you are going to be needing a base load of power that 
you have counted on for a long time and will count on for a 
longer period of time, then there has to be some support and 
some certainty.
    And I will use this. This segways into what you have, I 
think you all have requested cutting $240 million in de-
obligated funds. I think those de-obligated funds are all 
coming from the Summit Power Group's Texas Clean Energy 
project, and you are using that as part of your new money going 
back into clean coal technology.
    The only thing I would ask is if you all are not going to 
commit to seeing these projects to their fruition, to see if 
carbon capture sequestration can work on commercial load and 
you are pulling $240 million from the original grant of $450. 
You are cutting it over half, pulling money back.
    I don't know then. You are asking people that they should 
be these tax credits--They have no idea--They can't get from 
the Treasury Department. Well how much tax credits have been 
used? What is left? What they can count on? So there is no 
certainty in it, and I think when you see they are not taking 
the guaranteed loans again. So even though I know we are 
talking. We talk, and I know the Administration has the 
appearance of wanting to do clean coal technology. Nothing is 
happening.
    I think you saw Senator Daines talking about basically what 
is happening around the world, more use of this coal. If the 
rest of the world is going to use the most abundant energy 
supply they are using, the same as we built our country on and 
we want them to follow suit. If they follow suit with what is 
happening in my State of West Virginia, the economic damage 
that has been done, there is no way they are expected to follow 
that.
    I think the technology is where we should be going. So this 
is where I am, and that is the reason I am there. I am just, 
you know, people lose 500 jobs and that hurts. I understand 
that. Try losing 19,000 jobs in a state the size of West 
Virginia.
    Go look at these people. Look at the families. Schools, 
we've got schools closing, sir. I have got teachers that are 
losing their jobs. There are no more kids in these schools, 
just unbelievable. So it does not seem like that you all are 
committed too. I mean, it looks good on paper but the $240 
million project that is directly pulled from a job and a 
project you were working down in Texas.
    Secretary Moniz. If I may?
    Senator Manchin. Yes.
    Secretary Moniz. If I may respond, Madam Chairman?
    The Chairman. You may.
    Secretary Moniz. As I mentioned, we all obviously feel 
very, very much appreciate the social impacts of that kind of 
job loss, etcetera.
    I do want to emphasize that first of all, we do have, there 
are Administrative-wide programs with regard to helping 
transition communities, the Power Plus Plan. But I want to say 
specifically and again, make an offer. You know, two years ago 
I brought in two excellent people to startup a jobs strategy 
council focusing on specifically jobs in energy.
    In this budget, by the way, I think it's gone so well, 
frankly, that we are proposing that that become a new budget 
line rather than collecting money from various offices. It's 
rather, rather modest, but they've done a terrific job. They 
have gone to coal country in Virginia, for example. I'd be 
delighted to send them up to visit you in West Virginia.
    Senator Manchin. Coal in Virginia is never, I mean, we love 
our southwest Virginia coal miners, but they have never been 
considered coal country.
    Secretary Moniz. Well you consider it that it was like a 
practice run, okay?
    Senator Manchin. Practice, okay.
    Secretary Moniz. But we'd be happy to do that for West 
Virginia.
    But I have to say on the $240 million we have to understand 
in the CCPI program there's a portfolio of major demonstration 
projects put out there. Some have succeeded, are operating. 
Some could not meet the financial closing criteria.
    So the program, and I want to emphasize this, is the 
program decided that its optimal approach was to take that 
money and essentially--still by the way, hoping that other 
things could happen to have those projects work which I can 
discuss offline.
    The Chairman. We've got to----
    Senator Manchin. I know. If I can just follow, one thing, 
sir.
    I would love to sit down with you. You keep saying you are 
going to come, and I know you are going to come to West 
Virginia. I appreciate that, and I want you.
    Secretary Moniz. When I'm welcomed.
    Senator Manchin. You are welcome. I want you to come. But 
the bottom line is I want you to know this.
    Secretary Moniz. Yup.
    Senator Manchin. If the United States of America still 
needs West Virginia to do the heavy lifting and produce the 
energy that this country has always counted on from our little 
state, we want to do it. If you are projecting through 2040 you 
need 30 percent of it, give us some certainty so we can give 
you the energy you need.
    Don't keep beating the living crap out of us to where you 
say, well we really need you but I don't want you. That is what 
is happening, and the uncertainty is killing us, sir. I will 
end on that.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    You know, I will tell you it hurts to hear that when a 
state is losing 19,000 jobs, losing an economy, losing, really, 
a source of family income for generations and generations, and 
the response from the Administration is we are going to send 
you some job training folks to help out. Boy, that is not the 
answer either.
    It is how we access our resources in a way that is 
responsible, that provides for the economy, for a resource that 
we all need and boy, know that my heart is with you because the 
answer is not to send more job training or retraining programs. 
It is to figure out how we access our resources.
    Senator Manchin. Just let us do our jobs.
    The Chairman. For the benefit of the country.
    Senator Manchin. Let us do our job.
    The Chairman. Let us do our job.
    I have got to go to an Appropriations Committee and very 
quickly ask some questions. Senator Cassidy is next. Senator 
Gardner will follow and Senator Capito after that. Senator 
Gardner, you will have the gavel in my absence here.
    Thank you.
    Senator Cassidy. I also associate with Senator Manchin's 
comments. A family is now on dependency which formally was 
self-sufficient and able to send their kids to better schools, 
etcetera, and that is a result of government policy.
    That said, Secretary Moniz, we have spoken before about the 
MOX program. And Congress, in Fiscal Year 2016, gave clear 
direction that it wished the facility to continue to be 
developed. The President's budget calls for the termination of 
this facility in 2017 as well as a 90-day work stoppage at some 
point in the near future.
    Now Congress just said, we want it to happen. So I see you 
shaking your head, no. I hope I have this incorrect. I hope 
that there is some guarantee that the MOX will continue to be 
developed and constructed in 2016 without any sort of work 
stoppage, interference and overtime or procurement necessary, 
etcetera. Any thoughts on that?
    Secretary Moniz. The construction is continuing as directed 
by Congress. There's no surprise that we've been talking for 
about the need for a lot more money for that project to work, 
and the 90-day work stoppage is something that would happen in 
2017, if the Congress agrees with the change of direction.
    Senator Cassidy. Okay.
    There was a question about re-baselining the expenses. Has 
that re-baselining been executed or planned on, etcetera?
    Secretary Moniz. I'm a little bit confused. You mean re-
baselining of the project cost profile?
    Senator Cassidy. An updated performance baseline. Instruct 
the DOE, in Section 3119 of the Fiscal Year 2016 National 
Defense Authorization Act DOE was asked to submit in the 2017 
budget request an updated performance baseline for the MOX 
project. When can we expect the re-baselining to be complete?
    Secretary Moniz. Let me look into that, Senator.
    Certainly we have carried out a number of studies in 
baselines, so. But I'll see if we still owe a new re-
baselining. I'm sorry. I'll look at that.
    [The referenced information was not provided as of the date 
of printing.]
    Senator Cassidy. Gotcha.
    Knowing that you are the nuclear guy, this is an easy 
question for you. But it is one, when I read there is concern 
because I think there is a lot of interest in the 
Administration to move this plutonium to New Mexico and dilute 
it somehow.
    What I have read is that the New Mexico facility has to be 
guaranteed for 10,000 years. What I have read is that the 
density of this plutonium is so great it would have to be 
diluted some 250 times or something such as that exhausting the 
capacity of that facility and requiring it to be further built 
out.
    That field is in the Permian Basin which is always being 
drilled for oil and there are aquifers flowing through. So the 
point of this article in Nature was that moving the energy to 
New Mexico, as I gather the Administration would like to do, is 
fraught with we ain't going to keep it safe for 10,000 years. I 
mean we are fooling ourselves to say so because of the natural 
geologic processes and man-made projects.
    Any thought about that? I suspect you dispute that, but you 
are the expert. So that is why I ask.
    Secretary Moniz. Yes, sir.
    Again, I do want to, well first of all start off by 
emphasizing that we do have nearly five tons of the same kind 
of material already in WIPP. And we have performed a NEPA 
analysis, not for the full amount of plutonium being discussed 
here but for 13 tons. And in fact, six tons from Savannah River 
are--have been for some time already vectored as a preferred 
alternative to go to WIPP.
    There have been, first of all, the salt bed is almost by 
definition fairly, pretty stable, because if there were 
substantial water flow it wouldn't be there. So salt has always 
been viewed as very favorable medium. And finally there has 
been a recent paper arguing about criticality or safety risks. 
We had Sandia National Laboratory look at that, and they find 
the paper to be without merit.
    Senator Cassidy. Gotcha.
    Lastly, there seems to be some confusion as to how complete 
MOX is. I have here, let's see, two different government 
officials. One, Administrator Clots testifying to the Senate 
Arms Services Committee that it was over 60 percent complete. A 
year later the National Nuclear Security Administration 
testifying 35 to 41 percent complete. How would we reconcile 
those two? Can you give us an idea?
    Secretary Moniz. Well first of all let's distinguish two 
different things. One is and this has been a lot of confusion 
about comparing apples and oranges. One point is that the MOX 
facility is only one piece of a bigger, bigger project that 
requires multiple facilities to do it.
    So when the contractors, for example, you know, AREVA, 
etcetera, are talking about it, they're talking about that one 
facility. Even for that facility there is substantial 
disagreement, shall we say, on the level of completion. They 
talk about 60 to two-thirds finished. We do not believe that 
that's the case. We believe that the cost, even of that 
facility, is many billions of dollars more than what the claim 
is.
    In that context working with Senator Graham, now already, I 
think, two years ago, we sat down with them. We worked through 
an offer, a different contract structure in which a part of it 
would be a fixed cost, for example, since they were so 
confident and they were almost done. Well, let's just say, that 
was not accepted.
    Senator Cassidy. Let me investigate because I was told they 
would accept the fixed cost. They would accept going at risk 
and may find out----
    Secretary Moniz. If I may say precisely what the discussion 
was, the definition of fixed cost they came back was fixed cost 
unless we go over by a lot. [Laughter.]
    And then you pay. It's the truth.
    Senator Cassidy. Then I will go back and check. I have 
learned to say what I have been told, not what I know.
    Secretary Moniz. Please.
    Senator Cassidy. Thank you very much.
    Senator Gardner. [presiding]: Thank you, Senator Cassidy 
and thanks to the Chair and the Ranking Member for holding this 
hearing today. Mr. Secretary, thank you for being here.
    I will take my turn at the questions here, I guess, then 
turn to Senator Capito.
    First of all I want to thank you for being a taxpayer in 
Colorado. I believe that is the case. Is that correct?
    Secretary Moniz. That is correct.
    Senator Gardner. Very good. Thank you.
    Secretary Moniz. I am supporting it.
    Senator Gardner. Supporting it, supporting a great state. 
Thank you very much.
    I want to talk a little bit about the National Renewable 
Energy Laboratory (NREL), if I could, the cyber security, for a 
moment.
    You know, NREL is located in Golden, Colorado and the 
health of our national laboratories is critical to the work 
that we are doing across the country, particularly the work 
done at NREL is truly appreciated. It is a leader in clean 
technologies, wind. We all know what NREL does, and we are very 
proud of it.
    But many of these technologies that we are developing and 
under considerations, innovations at NREL and others, are 
sharing energy data and information through the Cloud. While 
this has allowed us to do some pretty amazing things and I have 
been through some, like the wind model, the wind power 
generation tunnels and modeling 3D centers that they have 
there, it does open energy infrastructure to cyber security 
threats.
    We hear anecdotes in the papers or committees about hackers 
being able to access smart refrigerators, electric vehicles, 
those kinds of things. Those are anecdotes that we can pick up 
on. But could you talk a little bit about the Department's 
extensive efforts in cyber security for the grid and other 
energy infrastructures and plans for investigating cyber 
protections and how our national laboratories could play a 
role?
    Secretary Moniz. Yes, thank you.
    First of all, let me say that we have a cross cutting cyber 
initiative which is proposed at something like $330 million 
this year which is about a $10 million increase from last year 
but we have many other activities.
    I just want to emphasize we do have three different cyber 
responsibilities. One is protecting our own, kind of, 
administrative information. Second is our nuclear secrets, and 
third is working with the energies, the private energy sector, 
mostly because we have PMAs but mostly private on cyber 
protection.
    First of all the threats have been escalating, there's no 
question about that, in recent years. The national laboratories 
are a major resource here. We actually have, I believe, ten 
national laboratories which includes NREL in various aspects of 
a bigger cyber security program from technology to kind of, 
systems, systems analysis and modeling to test beds where we 
can look at various attack vectors and address those.
    So the labs are very, very critical. We have a Cyber 
Council I formed, actually one of my first things at DOE that 
cuts across things on the labs, plays a very important role 
intersecting with that. The Deputy Secretary chairs that.
    Senator Gardner. Thank you for that.
    In terms of some of the cyber issues that we faced, we just 
passed a North Korea sanctions bill. The U.N. just passed some 
sanctions yesterday in a strong resolution. They did not 
include any cyber methods against North Korea.
    Are you aware of any attacks, recent attacks, to our grid 
or energy infrastructure or perhaps to the nuclear side of your 
responsibilities directed out of or from North Korea or China?
    Secretary Moniz. I would just say that there are increasing 
probes of our energy infrastructure from a variety of sources.
    Senator Gardner. And perhaps maybe we can have a discussion 
of this in a different setting.
    Secretary Moniz. We can express that in a different 
setting. Yup.
    Senator Gardner. Let me ask this another way.
    Do you believe that China is living up to the terms of the 
agreement that it signed with the President last year in terms 
of its willingness to not hack for commercial purposes?
    Secretary Moniz. Again I think that would be best discussed 
with probably others from the intelligence community at the 
moment.
    Senator Gardner. Okay, thank you.
    I want a just brief answer if I could from you about energy 
savings performance contracts. I have tried to come up with a 
better bumper sticker name because that name takes up the 
entire bumper. [Laughter.]
    But are we on track? Is the Department on track to ensuring 
the President meets his $4 billion goal to save dollars through 
the use of energy savings performance contracts?
    Secretary Moniz. Well, so far the--we're at about the $2.5 
billion mark. Projects under--in the pipeline would extend that 
to about $5.5 billion. There are, I believe it's 128 projects 
that are now, right now, expected to get across the finish 
line. And if you scale that from the projects that are done, we 
would get over the $4 billion mark.
    Senator Gardner. Very good. Well if there is any assistance 
we can provide to help make that goal a reality.
    Secretary Moniz. I really appreciate the interest in that 
because I agree. I think you agree with me and I agree with you 
that this is a critically important----
    Senator Gardner. Absolutely it is and we have got some good 
language in the energy bill that we are working through that 
right now. And hope we can get that passed.
    Final question. There have been reports days prior to North 
Korea's latest nuclear test that the Administration was talking 
about a peace negotiation with North Korea without any 
preconditions and that there were some talks, at least 
anecdotal again that an Iran nuclear deal, kind of, agreement 
might have been under consideration for North Korea.
    Were you a part of any discussions like that or any 
discussions with North Korea's nuclear stockpile or ambitions?
    Secretary Moniz. Again, I think that would be a discussion 
you'd have to have with the National Security Council or the 
Department of State.
    Senator Gardner. Okay, but you are not involved in any kind 
of nuclear analysis or considerations of North Korea's 
capabilities or stock pile or centrifuge?
    Secretary Moniz. I apologize but I really cannot discuss, 
you know, these kinds of internal discussions. But again, if we 
meet on some of these other issues offline we could perhaps go 
into that in more detail.
    Senator Gardner. Okay, because I am just really trying to 
get in just to see if the Administration is using the 
Department of Energy's expertise to analyze any aspect of North 
Korea.
    Secretary Moniz. Let's just say historically, certainly, in 
all of the nuclear discussions with any country, including 
North Korea, DOE experts were always engaged to provide the 
technical support.
    Senator Gardner. Thank you, Mr. Secretary.
    Senator Capito, I think the Ranking Member is here.
    So you take over at this point or?
    Senator Cantwell. I think you said it, Senator Capito. 
[Laughter.]
    Senator Capito. Thanks to both of you, and thank you, Mr. 
Secretary.
    I want to begin my remarks by associating myself with the 
Senator from West Virginia, Senator Manchin. He is not 
exaggerating here. We took the trip to Alaska. We saw some of 
the same phenomenon in Alaska, as the Chairman said.
    But just to add to what she said. A $360 million state 
budget in the hole. We are losing not just coal jobs, 
transportation jobs, work, equipment providers, manufacturers. 
It is a very pessimistic, desolate, new pockets of poverty that 
are being created that are very, very difficult. I just want to 
associate myself with those remarks.
    My first question is about the energy labs. In the hearing 
last year, you and I discussed some of the concerns that I have 
regarding CRENEL, the CRENEL report on the national labs. My 
question is does your budget request include a position 
concerning the DOE lab commission's recommendations pertaining 
to NETLs, separating NETLs R and D and its program 
responsibilities or in transitioning NETL to a go-co to a go-
go?
    Secretary Moniz. Senator, no, we are not considering that. 
We are implementing most of the CRENEL recommendations but not 
that one.
    Secondly and a different thing which may be related is in 
the fossil energy budget, I believe, it is a good step forward 
to more clearly identify the R and D and infrastructure budget 
lines at NETL which were previously impossible to find.
    I would just add that the Director, Grace Bochenek, was 
really a driver of wanting that kind of structure to allow her 
to strengthen the R and D activities.
    Senator Capito. Well I appreciate that. You kind of segued 
nicely for me to my next question because as we were going 
through the budget and the fossil energy R and D accounts, you 
have changed a lot of the names and maybe this is a result of 
what you just said to more clearly identify. But it has made it 
a little bit difficult for us to interpret where the money is, 
how much is in certain accounts and what that could mean.
    Is that the rationale, the rationale you gave me 
previously, is that the rationale for the change, so you can 
more specifically identify?
    Secretary Moniz. Yes, we'll be able to see much more 
clearly what the NETL funding is. And by the way it's gone up 
in this budget request with a particular piece driving it is, 
in my view, finally addressing the super computer upgrade needs 
at NETL.
    Senator Capito. Okay. What I would like to have is a 
commitment from you that the DOE will work with me and my staff 
so we can more easily parse these new categories.
    Secretary Moniz. Sure.
    Senator Capito. And understand what actually----
    Secretary Moniz. Sure, we'd be happy to go up there and 
walk through the, kind of, line by line.
    Senator Capito. I would appreciate that.
    My final question is we were in a meeting several months 
ago talking about the future of coal and the research and 
development, and we talked about CCS and we talked about CCUS. 
If I am misquoting you, you can correct me, but I believe, well 
the impression that I had was that the future of coal really 
lies in the U part of that, the utilization area.
    What I want from you, as a scientist and all the research 
that goes on at DOE, in terms of the utilization of carbon, 
where are we, on a scale of one to ten, in terms of the 
research? Are we at a one? Are we at a seven? Are we getting 
closer? I do believe if we are going to keep the energy mix 
with coal as a very vital part, we have got to figure it out. 
We can capture it.
    Secretary Moniz. Well you mean specifically on the U.
    Senator Capito. On the U.
    Secretary Moniz. Right.
    So what I would say is I would divide the U into two 
different areas. One is the most transparent U, is enhanced oil 
recovery.
    Senator Capito. Right.
    Secretary Moniz. Which is what's going on right now, 
etcetera. And that has been an essential component of the 
financial model used for current projects. Now, frankly, that's 
suffered with the steep decline in oil prices.
    Senator Capito. Right.
    Secretary Moniz. Because you don't get as much bang for the 
U.
    Senator Capito. So is that technology at a nine/ten? I mean 
it could be improved but----
    Secretary Moniz. Oh yes, as far as technology goes----
    Senator Capito. It is done.
    Secretary Moniz. I mean, we know how to do it.
    Well, yes, in conventional, so called, tertiary oil 
recovery. But there are some other ideas. For example, one of 
your colleagues on the Committee, not here, Senator Hoeven, I 
think is very enthusiastic about the idea of CO2 stimulation of 
shale to enhance oil recovery.
    Senator Capito. Right.
    Secretary Moniz. And there, I think, we still have some 
work to do. But then there are other ideas.
    We do have a small pilot project right now in Texas 
involving a cement factory. There have been various ideas about 
using CO2 in essentially in building materials because that's 
something with big scale where you can get a lot of CO2. But so 
far the costs have not, are still not low enough.
    Senator Capito. Right.
    Secretary Moniz. And then there are more exotic ideas which 
are potential grand slams but they are very low on the scale, 
on your scale of one to ten.
    Senator Capito. Right.
    Secretary Moniz. In terms of maturity, such as using say, 
sunlight, water and CO2 to produce a hydro carbon fuel. So 
there's lots of ideas, and I think this U is an area for 
looking at taking chances, taking risks on new ideas.
    Senator Capito. Right.
    Secretary Moniz. For potentially transformational.
    Senator Capito. I think that too does hold a lot of our 
future, some of our future anyway. I would encourage you at the 
Department, I know you have already, but I would encourage you 
to keep pursuing in that area.
    Thank you.
    Secretary Moniz. Thank you.
    Senator Gardner. Thank you, Senator Capito.
    Senator Hoeven is here and I am sure he has some questions 
just when you thought you were off the hook, ready to go. You 
were going to make lunch.
    Secretary Moniz. I already answered his question. I just 
did. [Laughter.]
    Senator Gardner. And so I don't know, Senator Hoeven, this 
is your first question?
    Senator Hoeven. Yes.
    Senator Gardner. This is your second round?
    So we will go to Senator Hoeven if you are ready for your 
questions.
    Senator Hoeven. Absolutely.
    Thank you, Chairman Gardner. I appreciate you and the 
Ranking Member holding this hearing. Secretary Moniz, it is 
good to see you. Thanks so much for being here. Thanks for your 
trips to North Dakota. We appreciate it very much.
    What I would like to focus on for just a few minutes is 
carbon capture technologies. The Administration is putting 
forward regulations that require reduction in CO2 emissions, 
but the carbon capture technology is not commercially viable in 
the market. So how can the DOE help our coal-fired electric 
companies and utilities actually implement carbon capture 
technology that is economically and commercially viable?
    Secretary Moniz. Well I think we've had this discussion 
before and certainly we have technologies that work. And of 
course, in the, I think what you're referring to in terms of 
clean power plant, I would just note that what's required there 
are partial captures, not the kind of like 90 percent capture 
that we have used in our demonstration plants.
    But as we go into the FY'17 budget we have also repurposed, 
if you like, funds to emphasize developing other novel 
approaches that may result in even substantially lower costs 
like chemical looping and oxy combustion. So we're proposing 
smallish, ten megawatts pilot plants with these new approaches.
    Senator Hoeven. Are those going to be ready in time to help 
the power plants meet the clean power plant requirement?
    Secretary Moniz. Well we have whole set of available 
solvent technologies. Something like oxy combustion, there's 
been some small scale tests before. It frankly, to me, does not 
seem technologically, you know, risky. I think a big issue 
there on the cost side will be continuing to drive down the 
costs of air separation. Chemical looping is probably a little 
bit behind that in terms of maturity.
    Senator Hoeven. What programs do you have to help do that? 
I mean, how are you helping these companies implement that new 
technology? What can you do to help them?
    Secretary Moniz. Well as I say we are, we want to go 
forward with pilot projects to demonstrate those technologies.
    I might add there are other technologies that are not 
carbon capture but would affect, let's say, efficiency of 
thermal plants like our proposed increase for the pilot project 
on super critical CO2 and for advanced materials in extreme 
environments which would be relevant to working in much higher 
temperatures and pressures.
    Senator Hoeven. The only plant that I know of that captures 
CO2 and actually sequesters it for tertiary oil recovery is 
Dakota Gasification Company in North Dakota which you have been 
to.
    What I am trying to figure out is how we help develop more 
of those projects because the only way we are going to get the 
technology out there to do it is to have the R and D done. I 
get that it is technologically feasible but it is not 
commercially viable. We have got to somehow drive that cost 
curve down or do more with enhanced oil recovery to create a 
revenue stream.
    This is where you have got to help do it. You have got to 
help these companies do it because of the cost. I mean, this is 
your basic R and D function translating into commercialization 
of new technologies.
    Secretary Moniz. Yeah. I would just add that, of course, 
there are other aspects besides the technology R, D and D and 
as you well know there's also the $8.5 billion fossil loan 
program for projects.
    But I would just add something that I think is very 
important and maybe merits enhanced discussion is the 
Administration proposal for both production tax credits and 
investment tax credits for carbon capture and sequestration, 
probably $5 billion worth of credits in that proposal which is 
in the FY'17 budget. Not in the DOE budget, but for Treasury.
    Senator Hoeven. Alright.
    Well I think that is going to be the key in terms of 
finding ways to develop this technology and deploy it in terms 
of making it commercially viable and economically viable, not 
just technologically viable. And that that has to match up with 
the regulatory environment.
    Secretary Moniz. Well, we'll continue to drive the cost 
down. As with all of the low carbon technologies, it's all a 
question of keep going with innovating, deploying and driving 
the cost down.
    Senator Hoeven. We have a project called the ALEMS cycle 
that we are working on. I do not know if you are aware of it 
but that is exactly the kind of thing we are talking about and 
would appreciate DOE participation and assistance in that ALEMS 
cycle project.
    Secretary Moniz. Yeah, I'm not familiar with it. I 
understand it does involve a super critical CO2 element at 
least.
    Senator Hoeven. Exactly.
    Secretary Moniz. Which again, is the demonstration that we 
are also funding but perhaps there needs to be a briefing of 
our fossil energy people on what it is.
    Senator Hoeven. We have utility----
    Secretary Moniz. I'm not familiar with it.
    Senator Hoeven. We have utility companies that are working 
on it. The State of North Dakota is working with them. The 
State of North Dakota is willing to put resources into it, and 
we would want to partner with DOE as well.
    Secretary Moniz. Okay. Well and I think a technology 
briefing would be the first step.
    Senator Hoeven. Okay.
    Secretary Moniz. Yeah.
    Senator Hoeven. Thank you.
    Secretary Moniz. Thank you.
    The Chairman. [presiding] Thank you, Senator Hoeven.
    Secretary, I am going to ask another few, final questions 
and then turn it over to Senator Cantwell. I have got another, 
yet another, hearing that I have got to race off to, so I 
apologize again for jumping up and down.
    So back to definitional issues as I raised in my first 
round. Clean energy, clean is referenced frequently in the 
budget response in terms of R and D innovation and goals. 
Within DOE's definition of clean energy do you include 
hydropower?
    Secretary Moniz. I certainly do.
    The Chairman. I know you do. [Laughter.]
     But for purposes of making sure that everything meets 
these criteria and eligibility, are we defining, as you know, 
in our energy bill, the Energy Policy Modernization Act, we 
define hydropower as clean energy or renewable energies.
    Secretary Moniz. Yes.
    The Chairman. And it is renewable.
    Secretary Moniz. Yeah, and it's in our renewable energy 
portfolio.
    The Chairman. Okay. So you consider hydro to be clean, 
then, in that sense?
    Secretary Moniz. Yeah, it's explicitly part of our 
renewable portfolio.
    The Chairman. Good, good, we want it to be explicitly part 
of that.
    SPR, the Strategic Petroleum Reserve. Can you give us any 
updates in terms of the drawdowns that were mandated under the 
bipartisan Budget Act and the FAST Act last year? Are you 
facing any challenges on this? Are you on track? Where are we?
    There was going to be an update in terms of SPR 
modernization that we were expecting this spring. Where are we 
with the Strategic Petroleum Reserve?
    Secretary Moniz. Yes, to be honest I certainly don't 
anticipate any drawdowns this year in terms of the FAST Act. 
But on the SPR modernization, the report is due in May. We are 
trying to accelerate that as best we can.
    The Chairman. Yes.
    Secretary Moniz. And to have that accompanied by a budget 
amendment that would start us moving, at least on the first 
tranche of the modernization.
    The Chairman. So that would be sometime later this summer?
    Secretary Moniz. Well May is the target date, the current 
target date.
    The Chairman. Okay.
    Secretary Moniz. As I say we are trying to move that ahead, 
if we can, because we feel that it would be good to get it 
before the Congress as soon as possible.
    The Chairman. I agree.
    Let me ask about small modular reactors and advanced 
nuclear. You have spoken often about the necessity of including 
nuclear energy in the portfolio of clean energy technology. I 
absolutely agree. You have also spoken about the development 
and deployment of small modular reactors.
    As we are seeing this SMR licensing technical support 
program come to a close, and hopefully this first full 
application is submitted for license, what is next here? Will 
the DOE strategy be to support further license work for light 
water SMRs through a similar large competitive public/private 
partnership or is more focus going to be placed on advanced 
reactor technologies? How do you see this playing forward now?
    Secretary Moniz. Well I think it's important that we work 
across the board. I'll just give three different examples.
    One is that we just renewed the very successful nuclear 
power plant simulation hub which is located at Oak Ridge with 
others involved including Idaho lab and others, North Carolina 
State University, MIT. So that's about advanced light water 
reactors, advanced fuels, etcetera.
    Then when you go to SMRs, still the same basic technology 
of light water but novel design. And there we think we're on 
track for the new scale NRC submission later this year.
    But frankly I would say I was disappointed that 
unfortunately we had to end the other small modular reactor 
that we had supported called Empower because we thought it was 
also a very good technology, but they made a corporate decision 
to stretch it out to beyond our time horizon. So but I'm still 
interested in more of that.
    Third, we also just gave, recently, two awards to companies 
who had consortia, including labs in EPFRIE, etcetera. One for 
pebble bed reactors and another for molten salt reactors which 
is a reactor design that started at Oak Ridge some years ago.
    So we're working on, kind of, evolutionary current 
reactors, SMRs and advanced cycles.
    The Chairman. So you have a $28.2 million decrease in 
program support for advanced reactor technologies. On the one 
hand you are saying we are forward in a way that you feel 
relatively confident. But the budget----
    Secretary Moniz. Well we just gave $80 million, up to $80 
million, to get those two new advanced concepts going.
    The Chairman. Okay.
    Secretary Moniz. And this year, frankly in FY'17 budget in 
balancing things out, the SMRs, certainly protecting the SMR 
was important.
    And secondly, really trying to launch, well we did launch 
this year, we are launching now, but to pick up the whole 
consent based process for the back end.
    The Chairman. Right, right.
    Secretary Moniz. Because that remains extremely important 
to us. We hope with the FY'17 money, especially on interim 
storage, that we'll be able to move to community grants for 
those places that have serious interest.
    The Chairman. Of course we have been working with you on 
that along with Senator Alexander and Senator Feinstein. So 
look forward to continuing that.
    I just want to bring to your attention a question for the 
record that you will see, and that is a request for more 
information on DOE's involvement with the State Department on 
the 2015 renewal of the U.S./Israel oil supply agreements. So 
we will be asking for more information on that. I wish that I 
could take more time here with you.
    Secretary Moniz. I might just add----
    The Chairman. But I am going to run off and ask my 
questions.
    Secretary Moniz. I would just, as you are leaving, just say 
that I'll be in Israel in early April and that will be one of 
the topics of discussion.
    The Chairman. Great. Maybe we can look forward to getting a 
little bit of update.
    Again, thank you for all you do. Thank you for your 
commitment to making the time to come to Bethel.
    Secretary Moniz. Thank you.
    The Chairman. It meant a lot to many people.
    Secretary Moniz. Good, thank you.
    The Chairman. Senator Cantwell, if you can just wrap us all 
up?
    Thank you.
    Senator Cantwell. [presiding]: Well thank you, Madam Chair, 
and good luck in your other post and making sure we remember 
these issues of energy and water.
    Mr. Secretary, thank you for your time this morning. I just 
want to follow up from my first round on a couple of those 
issues; the next steps on defense waste and separating defense 
waste from commercial waste. What are the next steps we need to 
do?
    Secretary Moniz. Well, so right now we have a request for 
information out to the public at all the elements of the back 
end, storage facilities, both pilot and large, defense waste 
disposal, geological disposal and commercial spent fuel 
disposal.
    So we're going through a three phase process this year, and 
the hope is that in the first quarter of FY'17 we would be able 
to start direct discussion with communities, states and 
regions.
    Senator Cantwell. I mentioned earlier that that resource 
was cut within the budget to have communities give input, so if 
you would look at that, that would be appreciated.
    Secondly, we need a permanent funding and partner source 
between DOE and DOI on the new historic national park.
    Secretary Moniz. Yes.
    So on the historical park, we are moving forward. There's, 
yes, there's no explicit budget line in FY'17 for DOE, but we 
have the funds to keep moving toward making available the sites 
and of course, at Hanford, we already have one major site open 
to the public.
    But going forward----
    Senator Cantwell. So you are saying the funds exist within 
your budget?
    Secretary Moniz. Yeah, for this year, for this year.
    However, after that I would be very surprised if we didn't 
need to come for, or someone come for explicit funding for the 
maintenance and upgrade for the public of certain facilities at 
the three sites. But for this year we'll be covered.
    Senator Cantwell. In '17? Do you mean in this proposal?
    Secretary Moniz. FY'17, I'm sorry, FY'17.
    Senator Cantwell. Okay, thank you.
    Secretary Moniz. Using FY'16 and '17 funds.
    Senator Cantwell. For '17 we'll be covered.
    Secretary Moniz. Correct.
    Senator Cantwell. Okay, that is what I wanted to 
understand. Thank you for that. We will look forward to working 
with you on the details of that.
    I wanted to bring up a couple of other issues. One, I know 
that the Department of Energy has been involved in so many 
issues as it relates to where we are going on renewable energy.
    We have a facility in Moses Lake, Washington which is the 
only commercially operating plant in the world to employ 
technologies that use about ten percent of the energy costs. 
Costs less, produces more pure product than just about any 
place and competing with polysilicon. But we are in a trade 
dispute currently. And if this trade dispute is not resolved 
soon, REC has said it will be forced to lay off approximately 
400 workers.
    So we cannot, not only lose this site in our state, but 
also lose the technology that we are able to produce there as 
it relates to polysilicon. So I want to get the Department's 
commitment to advocate on behalf of U.S. polysilicon producers 
and how we can resolve this trade dispute with China.
    Perhaps the Advanced Manufacturing Office could take an 
interest in looking at the supply chain and give comments to 
the Administration on this.
    Secretary Moniz. Okay.
    I'd like to learn more about the specifics, to pursue that. 
It certainly is an important area. And also, I'd be certainly 
happy to talk to our trade rep, Mike Froman and try to 
understand a little bit better what the trade situation is 
because I'm afraid I'm just not up to speed on that.
    Senator Cantwell. Yes, but I guess the importance of 
bringing it up this morning and asking for your engagement.
    Secretary Moniz. Yeah.
    Senator Cantwell. It is the issue of the supply chain and 
getting people to understand.
    Secretary Moniz. Right.
    Senator Cantwell. I am a firm believer, when it comes to 
all of these energy sectors, in our expertise. I see it, 
obviously in aviation. If you have the supply chain, you will 
have the jobs.
    Secretary Moniz. Right.
    Senator Cantwell. So if we have the supply chain--whether 
it is in solar or wind, if we have, truly, a strong supply 
chain--we will have jobs in the U.S.
    Secretary Moniz. I might add, as you well know, that it's 
along the supply chain where you may find the highest margin 
opportunities also.
    Senator Cantwell. Which is why this in particular is so 
frustrating because they are located there because of the cheap 
hydropower so they can produce a cost effective product. So not 
having them caught in what has basically been a panel dispute 
between U.S. and China and the retaliation then on the supply 
chain is what we are facing. I would appreciate your input. 
That would be so helpful.
    The smart building budget, as I mentioned, I am very 
excited that is where the budget is, but also in our energy 
bill that we are moving that Section 10-14, the smart building 
accelerator. This is about paving the way for innovative 
technologies and smarter buildings. And we have everything from 
the Bullet Center to the Brooks Corporate Headquarters to 
Swedish Hospital in Issaquah, the most, probably, energy 
efficient hospital in the world.
    So we have all of these examples. How does the budget 
proposal allow for evaluation of what is working in current 
smart buildings for both public and privately owned facilities? 
You increase in the advanced R and D in the deployment of smart 
building technologies, so I see a 44 percent increase in the 
Building Technologies Office. I just want to understand how 
that is going to focus on this particular effort, smart 
buildings.
    Secretary Moniz. Well the Building Technologies Office 
program is certainly going to look at smart buildings. That's, 
obviously, very, very critical. And also it's the issue of 
linking the building from behind the meter to the distribution 
system which is where new services can come in. So that's very 
important.
    Another point I would make which is not directly relevant, 
so much, to like, individual homes, but to bigger, let's say 
commercial facilities is something like the Better Buildings 
Challenge which is not doing the R and D but taking advantage 
of opportunities to get building efficiency.
    A core part of that is the promulgation of best practices. 
That's a requirement to be part of the program.
    So that's actually also, frankly, even though it's not an R 
and D investment, it's been extremely effective, I think.
    But buildings, as you----
    Senator Cantwell. You mean, DOE's leadership in helping to 
define that.
    Secretary Moniz. Yeah, so we have a convening role then the 
companies make pledges which is a minimum of 20 percent energy 
reduction by 2020, some reach that in three or 4 years and have 
doubled down. And but then part of that, frankly, they get a 
bit of a branding and but as a requirement to share best 
practices so that we can help promulgate that and bring the 
best practices, the best technologies to bear.
    Senator Cantwell. Thank you.
    The last question I want to wrap up with is last year I 
requested a joint DOT/DOE study on crude oil characteristics 
and volatility to make sure that we are setting the proper 
standard. It was very frustrating to find that our PHMSA agency 
did not believe that they had the power to regulate here. Can 
you give us an update on the crude by rail study that is being 
jointly conducted?
    Secretary Moniz. Yes. Well I haven't----
    Senator Cantwell. Is DOT cooperating and doing its share?
    Secretary Moniz. Ah yes, no, it's being absolutely cost 
shared. The work is centered at Sandia, and I think it's on 
track for 2017 which was the initial date. Everyone would like 
it to be faster but they will be going into a physical 
combustion test regime and sometime in 2017.
    I haven't, to be honest, I haven't checked in very 
recently, but I can do that. But 2017 was always the target 
year for the completion of the study.
    Senator Cantwell. And this is about volatility?
    Secretary Moniz. It's about volatility, yes, understanding 
what are the important parameters, etcetera. But also going 
into combustion tests to really understand accident scenarios 
and the like.
    Senator Cantwell. Well thank you, Mr. Secretary. You have 
been generous with your time.
    Secretary Moniz. Oh, I might just add one factoid.
    Senator Cantwell. Yes.
    Secretary Moniz. You may know that actually in the last 
year oil movements by rail have gone down 19 percent.
    Senator Cantwell. I think there was some just recent 
indication that they are about to go back up though, so to me 
every city in our state is impacted by this and we are proud to 
be a Pacific state and see the growing benefits of Asian 
markets.
    We just invested in a national freight strategy in 
prioritizing the movement of freight, but we have got to have 
safety standards on the volatility of these products moving 
through, not just our state.
    We just had another derailment issue; that was a propane/
ethanol issue. But we have to pay attention to making sure that 
the public is going to be safe and setting the standard and 
making sure that the agencies who regulate that do their job.
    So we are so happy that DOE has stepped up. We will look 
forward to hearing the results of, that analysis.
    Secretary Moniz. Great.
    Senator Cantwell. Again, thank you for your time this 
morning and for your commitment to all of our colleagues on 
these important issues.
    We're adjourned.
    [Whereupon, at 12:05 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                   [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
